<html>
<title> - MOVING MISSISSIPPI FORWARD: ONGOING PROGRESS AND REMAINING PROBLEMS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                      MOVING MISSISSIPPI FORWARD:
                ONGOING PROGRESS AND REMAINING PROBLEMS

=======================================================================

                               (110-143)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 19, 2008

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                   U.S. GOVERNMENT PRINTING OFFICE
43-116 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. ``RANDY'' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ARCURI, New York          JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee               ROBERT E. LATTA, Ohio
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
VACANCY

                                  (ii)

  


 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

           ELEANOR HOLMES NORTON, District of Columbia, Chair

MICHAEL H. MICHAUD, Maine            SAM GRAVES, Missouri
JASON ALTMIRE, Pennsylvania          BILL SHUSTER, Pennsylvania
MICHAEL A. ARCURI, New York          SHELLEY MOORE CAPITO, West 
CHRISTOPHER P. CARNEY,               Virginia
Pennsylvania, Vice Chair             CHARLES W. DENT, Pennsylvania
TIMOTHY J. WALZ, Minnesota           JOHN R. ``RANDY'' KUHL, Jr., New 
STEVE COHEN, Tennessee               York
JAMES L. OBERSTAR, Minnesota         JOHN L. MICA, Florida
  (Ex Officio)                         (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Bloodworth, Sherry-Lea, Director of Long-Term Recovery, Hancock 
  County, Mississippi............................................    23
Huseth, Michael, Executive Director, Lutheran Episcopal Services.    23
Kelly, Marsha Meeks, Executive Director, Mississippi Commission 
  for Volunteer Service..........................................    23
Longo, Hon. Tommy, Mayor, City of Waveland, Mississippi..........    23
Melton, Sidney, Director, Mississippi Transitional Recovery 
  Office, Federal Emergency Management Agency, Department of 
  Homeland Security..............................................    42
Pickering, Hon. Chip, a Representative in Congress from the State 
  of Mississippi.................................................     3
Taylor, Hon. Gene, a Representative in Congress from the State of 
  Mississippi....................................................     3
Thompson, Hon. Bennie, a Representative in Congress from the 
  State of Mississippi...........................................     3
Womack, Michael, Director, Mississippi State Emergency Management 
  Agency.........................................................    42

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    56
Norton, Hon. Eleanor Holmes, of the District of Columbia.........    57
Oberstar, Hon. James L., of Minnesota............................    59

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Bloodworth, Sherry-Lea...........................................    61
Huseth, Michael..................................................    72
Kelly, Marsha Meeks..............................................    77
Longo, Hon. Tommy................................................    86
Melton, Sidney...................................................    89
Womack, Michael..................................................   114

                       SUBMISSIONS FOR THE RECORD

Huseth, Michael, Executive Director, Lutheran Episcopal Services, 
  responses to questions from the Subcommittee...................    75
Melton, Sidney, Director, Mississippi Transitional Recovery 
  Office, Federal Emergency Management Agency, Department of 
  Homeland Security, responses to questions from the Subcommittee   100
Womack, Michael, Director, Mississippi State Emergency Management 
  Agency, responses to questions from the Subcommittee...........   120

[GRAPHIC] [TIFF OMITTED] T3116.001

[GRAPHIC] [TIFF OMITTED] T3116.002

[GRAPHIC] [TIFF OMITTED] T3116.003

[GRAPHIC] [TIFF OMITTED] T3116.004



      MISSISSIPPI FORWARD: ONGOING PROGRESS AND REMAINING PROBLEMS

                              ----------                              


                        Thursday, June 19, 2008

                  House of Representatives,
    Committee on Transportation and Infrastructure,
Subcommittee on Economic Development, Public Buildings and 
                                      Emergency Management,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Eleanor Holmes 
Norton [Chair of the Subcommittee] presiding.
    Ms. Norton. We would like to welcome especially our 
Mississippi colleagues and our panel of witnesses to this first 
hearing devoted exclusively to post-Katrina Mississippi, as 
FEMA has served the needs of Mississippi for nearly 3 years 
since Hurricane Katrina. We will be holding a hearing on 
Louisiana, focusing principally on New Orleans, this session as 
well.
    The demographics and geography of the Mississippi area are 
vastly different from big-city New Orleans, which claimed much 
of the attention in the aftermath of the worst hurricane 
devastation in the Nation's history. However, I flew over 
affected Mississippi counties shortly after Katrina and saw 
firsthand areas that, quite literally, had been blown away.
    When we had got out of the Black Hawk helicopter, I met 
with many citizens of the region that had been hit. At that 
time, they were living in tents. Even the public officials had 
lost their homes and were living in tents. The devastated 
Mississippi areas may not be as well-known as legendary New 
Orleans, but they have been of equal importance to this 
Subcommittee.
    Three years after Hurricane Katrina, it is apparent that 
there are still outstanding recovery issues in Mississippi. For 
example, there are reports that 67 of Mississippi's 82 counties 
still have trailers within their jurisdictions. As of May, FEMA 
reports that there are 6,414 temporary housing units in use in 
Mississippi.
    This Subcommittee has jurisdiction over the activities and 
recovery programs of FEMA which are authorized by the Robert T. 
Stafford Disaster Relief and Emergency Assistance Act and 
include the Individuals and Household Program, the Public 
Assistance Program and Hazard Mitigation Grant Programs.
    Mississippi has benefited from significant pre- and post-
Katrina legislation of this Subcommittee, including major 
improvements in the Stafford Act and to FEMA's disaster 
assistance programs in the Disaster Mitigation Act of 2000. In 
the 109th Congress, the Committee approved H.R. 5316, which 
became the Post-Katrina Emergency Management Reform Act of 
2006.
    Perhaps most important in this Congress has been the 
Subcommittee's leadership on H.R. 1144, the Hurricanes Katrina, 
Rita and Wilma Federal Match Relief Act of 2007, to provide 
significant relief for communities devastated by these 
hurricanes. H.R. 1144 waives the non-Federal share of certain 
FEMA disaster assistance provided to Louisiana, Mississippi, 
Texas and Florida under title 4 of the Stafford Act. The bill 
also increases the Federal share of the Public Assistance and 
Other Needs Assistance programs to 100 percent.
    Importantly, H.R. 1144 makes an exception for the Gulf 
Coast in allowing cancellation of loans to local governments 
for recovery from Hurricanes Katrina, Rita and Wilma if the 
local governments meet the statutory tests outlined in section 
417 of the Stafford Act.
    We were at pains to get this bill to the floor early when 
it passed the House in 2007 and regret that it has not yet 
passed the Senate. However, we understand that this bill is now 
on its way at last to the Senate floor.
    PL110-161, the Kids in Disasters Well-Being, Safety and 
Health Act, resulted from the concerns of many on the Committee 
about the problems with meeting the special needs of children 
displaced by Katrina. About a quarter of the people who lived 
in the ravaged areas were under the age of 18, and more than 
400,000 of them were under the age of 5. The National 
Commission on Children and Disasters will conduct a 
comprehensive study to examine the needs of children as they 
relate to preparation, response and recovery from emergencies 
and disasters.
    Today we will be particularly interested in the overall 
housing policy, the rebuilding of public infrastructure, and 
the case management services being provided through FEMA during 
these years of continuing recovery in Mississippi. We are 
particularly pleased to be able to hear from witnesses on the 
ground about whether residents of Mississippi are being well-
served by the authority, programs, and policies of FEMA in the 
wake of Hurricane Katrina.
    We welcome Members of Congress, FEMA, local citizens of 
Mississippi, and volunteer coordinators. The Subcommittee looks 
forward to hearing from each of you who have been active in 
Mississippi's recovery and to hearing your recommendations.
    I turn now to the Ranking Member, Mr. Graves.
    Mr. Graves. Thank you, Madam Chair, for holding this 
hearing on the ongoing progress and the remaining problems, 
obviously, facing Mississippi following the devastation of the 
hurricanes.
    I want to thank all of our witnesses for being here today, 
some of you coming from a long way.
    Following Hurricane Katrina in August 2005, many problems 
were found in the response and recovery efforts. This Committee 
has conducted extensive oversight into the process. We passed 
relevant legislation and examined how mismanagement and 
inefficiencies have impacted the ability of States and local 
towns to rebuild their communities.
    In most disasters, the resources of the State are adequate. 
However, in large disasters, like Hurricane Katrina, the 
State's resources will be overwhelmed. In the aftermath of 
significant disasters such as Hurricane Katrina, the State and 
local communities look to where they can to get the right 
resources in a timely manner.
    The unnecessary delays in recovery can compound the 
problems in already-devastated communities. For example, as 
Mayor Longo of the city of Waveland points out in his 
testimony, with most of Waveland's homes and businesses 
destroyed, rebuilding efforts are crucial to the very survival 
to a lot of these communities.
    The goal of these efforts is to help these communities get 
back on their feet. Unfortunately, slow bureaucratic processes 
at FEMA have, in many cases, frustrated these efforts. As local 
communities do what they can even in the face of such major 
disaster, red tape at the Federal level seems to lengthen the 
time it takes for the communities to recover and rebuild.
    I am very interested in hearing what folks have to say 
today. And, again, I know some of you traveled a long way to be 
here. Hopefully we can identify the lessons learned from this 
experience so that we can do a whole lot better job in the 
future.
    Again, I want to thank Madam Chair for having the hearing.
    Ms. Norton. Thank you very much, Mr. Graves.
    The Members of Congress who have come forward to testify 
were among the major contributors to the bill I mentioned in my 
opening statement, H.R. 1144, the Hurricanes Katrina, Rita and 
Wilma Federal Match Relief Act. We held hearings, these Members 
testified, and that act, in very substantial part, is based on 
their testimonies.
    The point of the act was to discover what kinds of issues 
specifically affected these areas and only these areas. And we 
made an exception only for the Gulf in the benefits and changes 
that were made in the Stafford Act; so they will not be 
affecting others because we don't know of any devastation that 
has been quite like that. And I mentioned that this bill has 
not passed the Senate as yet.
    So I think it is absolutely appropriate that the Members 
would want to come forward and say a few words first before we 
hear from Mississippi itself.
    Have you decided among yourselves who will go first?
    The Members are so polite with one another; they all defer.

TESTIMONY OF HON. BENNIE THOMPSON, A REPRESENTATIVE IN CONGRESS 
      FROM THE STATE OF MISSISSIPPI; HON. GENE TAYLOR, A 
REPRESENTATIVE IN CONGRESS FROM THE STATE OF MISSISSIPPI; HON. 
CHIP PICKERING, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
                          MISSISSIPPI

    Mr. Thompson. Well, I think as you know, Congressman Taylor 
and myself, we all have fun.
    Madam Chairman, thank you very much for hosting this very 
needed hearing. And I think this is the first time that I have 
sat on a panel where the entire Mississippi delegation has been 
a part, so you are indeed making history here in Washington, as 
well as the State of Mississippi.
    Madam Chairman and Ranking Member Graves and Members of the 
Subcommittee on Economic Development, Public Buildings, and 
Emergency Management, I come before this Subcommittee with 40 
years of continuous public service as the longest-serving 
African-American elected official in the State of Mississippi. 
I am also drawing on my years of experience as a volunteer 
firefighter in Hinds County to let you know that I fully 
understand the challenges that face the residents of 
Mississippi.
    Today, I would like to discuss several issues relating to 
the housing crisis along the Mississippi Gulf Coast, including 
the State of Mississippi's use of disaster funds appropriated 
by Congress.
    Before I turn to Mississippi, however, I want to highlight 
the fact that FEMA has not produced the National Disaster 
Housing Strategy that was required by the Post-Katrina Reform 
Act of 2006. This plan was due in July of 2007. Hurricane 
seasons begin on June 1st of every year. In short, Madam 
Chairman, one hurricane season has passed and a second has 
begun, but FEMA has not completed the plan that explains how 
its disaster housing strategy should work. I think some 
officials need to get their priorities in order.
    But I do want to acknowledge that there is one bright light 
in the housing front. The Disaster Housing Assistance Program, 
otherwise known as DHAP, has made some progress. DHAP provides 
temporary rental assistance and case management support to 
individuals displaced by Hurricanes Katrina and Rita.
    While this program provides rental assistance to disaster 
victims, unfortunately the amount of assistance provided 
through DHAP decreases every month. And on March 1, 2009, when 
the DHAP eligibility period ends, the money will run out 
altogether for those people displaced by Katrina and Rita. This 
program has benefited a few families, and it should be expanded 
and extended to mitigate the housing crunch being felt across 
the Gulf Coast.
    DHAP is a step in the right direction, but more can and 
should be done. FEMA and the Department of Housing and Urban 
Development should not limit the number of families eligible 
for DHAP assistance. They should improve incentives for 
landlords, thereby increasing participation in the program. And 
Congress should act to extend DHAP assistance past the original 
March 2009 deadline until the housing crisis on the Gulf Coast 
has subsided.
    These displaced families and many others who want to return 
to Mississippi need our continued help. As of last Friday, 
there were still 5,741 Mississippi families living in FEMA-
provided temporary housing units. Of this total, about 4 
percent are living on mobile home group sites, nearly 18 
percent are living on commercially owned sites, and about 78 
percent are living on private sites.
    These families can be divided, Madam Chairman, into two 
groups: the families who owned their homes prior to the storm 
and the families who rented their homes prior to the storm.
    These families who owned their homes prior to the storm 
have faced some difficulties in hiring contractors, but this is 
the least of their concerns. As I am sure Congressman Taylor 
will agree, the insurance companies left the Gulf Coast high 
and dry while residents struggled to rebuild. When Mississippi 
residents came home to a slab of concrete instead of their 
homes, I doubt they were concerned about whether it was wind or 
water that caused the devastation. Instead of focusing on 
rebuilding the coast, we were busy fighting the insurance 
companies who refused to own up to their responsibilities.
    While many homeowners continue to struggle with the fight 
to rebuild, a second group of citizens are struggling to find 
someplace decent to live. These are families who rented their 
homes prior to the storm. My concern is that they are being 
treated like second-class citizens.
    As I mentioned, there are 5,741 families still living in 
temporary housing units provided by FEMA, most of whom rented 
their homes prior to Katrina. Today, there are only about 1,500 
rental properties available in the entire State of Mississippi. 
FEMA has agreed to pay landlords 150 percent of the fair market 
rent, but that offer has not produced more housing stock.
    While we are concerned about housing development, Madam 
Chairman, we must also be certain not to displace those who are 
already living on the edge. One of my major obstacles in 
providing housing for disaster victims has been the reluctance 
of Mississippi leaders to provide assistance to those who need 
it the most.
    In September of last year, the Governor of Mississippi 
stated that housing is and will continue to be the most 
pressing issue facing coastal recovery. Despite that statement, 
the Governor requested permission from HUD to reprogram $600 
million intended for the construction of low- and middle-income 
housing for a port-expansion project. This reprogramming 
request occurred despite the fact that almost 6,000 families 
continue to live in temporary housing units. Remarkably, HUD 
granted this request.
    I believe the Subcommittee and our panel would be happy to 
learn that I, along with 11 other Members of the House, have 
sent a letter to the Appropriations Committee asking them to 
prevent the State from using these funds to expand the port. 
This is a question of priorities. Economic development is 
critical to the recovery of the Coast, but how can the State 
justify moving forward when low- and middle-income families are 
being forced to move out of State because there are no locally 
based affordable housing options?
    To date, in Mississippi, not a single rental unit has been 
constructed under the Community Development Block Grant funds 
that were intended to help low- and middle-income families. In 
fact, Madam Chairman, the Mississippi Development Authority's 
final plan calls for restoring less than half of the rental 
units that existed prior to Katrina.
    But this is not the only time the State has misplaced its 
priorities. The National Deficit Reduction Act of 2005 provided 
Mississippi with $700 million to help restore health care in 
the disaster area and provide the State with the ability to 
match Federal grants for hurricane relief. Somehow, these funds 
wound up going to the State's general fund, where the Governor 
tried to use them to raise judicial salaries. To make matters 
worse, the Governor diverted additional hurricane relief funds 
to improve a highway in north Mississippi that leads to a 
Toyota plant.
    It is difficult to convince that nearly 300 families in 
Mississippi who are calling a hotel or motel home and over 
5,000 more who are still living in temporary housing units, 
that the Government cares about their housing needs. It is 
especially difficult when they are witnessing the Governor's 
diversion of recovery funds to expand a port, raise judicial 
salaries, and build roads to a Toyota plant in north 
Mississippi.
    It is a question of priority, Madam Chairman. Apparently, 
providing affordable housing solutions to the victims of 
Hurricane Katrina is not high on some priority lists. But it 
remains a priority for me as a Mississippian and as a Member of 
Congress and as the Chairman of the House Homeland Security 
Committee.
    Two weeks ago, the Committee on Homeland Security, along 
with the Financial Services Committee, held a joint hearing to 
examine the Federal Government's role in providing affordable 
housing to disaster victims in the wake of catastrophes. This 
hearing resulted in the drafting of H.R. 6276, the Public 
Housing Disaster Relief Act of 2008, that I cosponsored along 
with Congressman Childers and Congressman Cazayoux from 
Louisiana. I am happy to report that this measure passed 
overwhelmingly in the House yesterday.
    However, our concern about housing must look to the future 
and also consider the past. We must hold Federal agencies 
accountable for their mistakes, especially when their mistakes 
endanger the health of disaster victims. I have held several 
hearings in my Committees exploring the high levels of 
formaldehyde in FEMA trailers supplied by the travel industry. 
As we move forward, we have to make sure that we provide health 
care for those that FEMA has put in danger.
    That is why Congressman Barrow from Georgia and I 
introduced the Travel Trailer Health Registry Act. This 
important piece of legislation will require FEMA to work with 
the Centers for Disease Control and Prevention to create a 
health registry of those who live in travel trailers, provide 
health screenings to those individuals and track their health 
status as we move into the future.
    As we move forward, I pledge to work with any and all 
Members of Congress who share my priorities to hold FEMA and 
HUD accountable and rebuild the Gulf Coast.
    In closing, Madam Chairman, I would like to thank you and 
the other Members of the Committee for the opportunity to 
testify before your Subcommittee.
    Ms. Norton. Thank you very much, Representative Thompson, 
Chairman Thompson.
    Chairman Thompson shares jurisdiction with this 
Subcommittee over FEMA, he for FEMA's terrorist jurisdiction 
and this Subcommittee for its disaster preparation and recovery 
jurisdiction. So we have to work together all the time. I am 
pleased to be a Member of Representative Thompson's Homeland 
Security Committee, as well.
    Representative Taylor, this is your district we are 
speaking of, largely, isn't it?
    Mr. Taylor. Yes, ma'am.
    Ms. Norton. Go ahead, please.
    Mr. Taylor. Madam Chairman, thank you for holding this 
hearing. And thank you for the help that you have personally 
provided to our district, the votes you have cast on behalf of 
south Mississippi.
    Madam Chairman, my hometown has a budget of $16 million. 
Your hometown has a budget of $6.322 million. But the reason 
this hearing is important is I serve on the Armed Services 
Committee, and the generals and the admirals have convinced me 
that you and I are going to live to see a weapon-of-mass-
destruction attack on the United States of America.
    So what happened to my district through the hand of God is 
going to happen to somewhere else in America through the hand 
of man, and we had better be prepared for it, because when that 
happens, it is going to look like South Mississippi looked like 
the day of the storm. There are going to be no stores. Food is 
not going to be available. There is going to be no running 
water. There is going to be no electricity. No are going to be 
no automatic tellers. The policemen may well have lost all 
their vehicles, like the cities of Waveland and Bay St. Louis. 
The firemen may have lost all their vehicles. Their 
communications will be gone. Hancock County was down to one 
satellite phone that belonged to the National Guard.
    And we, as the elected officials, are going to be 
responsible for providing these basic needs that we all take 
for granted that were gone overnight. And so what we do as far 
as providing food and fuel and electricity and basic sanitation 
is where we are going to start.
    Congressman Thompson talked on some of the things, and one 
of the issues that is a hot topic right now, Madam Chairman--
and I hope we can send FEMA a strong message today--is 
something as simple as ice. Just recently, FEMA announced that 
it would not be supplying ice to the people of a devastated 
community in the wake of a hurricane.
    That is a terrible decision, and I will tell you why. We 
live in a hurricane culture. Hurricane Katrina hit almost to 
the day in my son's life that Hurricane Camille hit in my life. 
You know it is coming, and you prepare for it. And most people 
strive to be self-sufficient the day after the storm. One of 
the things you do is you have food in your freezer, and you 
realize that, much like going camping, if you have ice, you can 
break that food out a little bit at a time and feed your 
family. The decision for FEMA not to supply ice means that what 
is in someone's freezer when they go the 2 weeks to 2 months 
without electricity is all going to thaw out at the same time, 
and therefore it goes to waste, rather than breaking it out a 
little bit at a time.
    It is normally hotter than Hades after a storm. That is 
just the way it is, between the moisture coming back up out of 
the ground, the heat; there is usually no wind. And folks like 
myself who are using to sitting in the air conditioning are 
suddenly out there with a chain saw or an axe trying to clear 
their driveway. And a little bit of ice to cool off the drink 
goes a long way. And if it keeps someone from getting a heat 
stroke and keeps them from going to the already-overloaded 
emergency room, then it is money well-spent.
    Lastly, I would remind people that I had the very 
unfortunate task, along with the Mississippi emergency 
management director, of actually commandeering an ice truck in 
the wake of Hurricane Katrina to put the bodies in. My local 
undertaker came to me the day after the storm, tears in his 
eyes, and said basically that he had bodies stacked up on the 
sidewalk and that they were rotting in the sun--remember, there 
was no electricity--and that he had to have a place to put them 
so that, when things got back to normal, their families could 
give them a decent burial. We commandeered an ice truck.
    So FEMA is going to stick to their decision not to have 
ice. That means people can't feed themselves. So our Nation is 
going to be flying in MREs at $8 a meal rather than people 
feeding themselves. There are going to be more people at the 
emergency room because they can't cool themselves off. And, 
yes, the bodies literally are going to be rotting because there 
is no place to store them.
    So I can't tell you what a bone-headed decision that is. We 
are going to give FEMA, in the next day or so, some 
alternatives with the ice policy, which starts with FEMA either 
buying or leasing ice-generating machines that are available in 
the commercial market and that can be spotted at every water 
tank in south Mississippi or anywhere--Miami; Mobile, Alabama--
along with a generator, along with a purification filter, and 
each place can be self-sufficient in ice. And, yeah, most of 
the water tanks did make it through the storm. And when every 
other landmark is gone, if a person knows that they can find a 
water tower, they can have a drink of water, and they can have 
ice again so that the food in the freezer doesn't go to waste.
    The other thing is insurance. Congressman Thompson talked 
on it. To this day, our biggest housing problem goes back to 
insurance. Thousands of people, including a U.S. Senator and a 
Federal judge, were screwed out of their homeowners insurance 
policies, and there is no polite word for it. They didn't get a 
dime. To this day, there are a thousand people, including a 
retired admiral in a highly publicized case today, who are 
still having to sue their insurance companies to get some sort 
of justice from them.
    And this House did pass a very comprehensive bill that 
allows people to buy wind insurance through the National Flood 
Insurance Program, to know that it doesn't matter how their 
house was destroyed, it doesn't matter how their house was beat 
up, if they come back the day after the storm and it is gone or 
substantially beat up, that they are going to get paid. They 
don't have to hire an engineer; they don't have to hire a 
lawyer. That, as long as they built it the way that they should 
have, as long as they paid their premium, they are going to get 
paid and they will have the money to put their lives back 
together.
    As far as affordable housing, right now the cost just for 
insuring an apartment in south Mississippi is $300 per unit per 
month. And one of the reasons that now with the Republican 
administration that says we want the private sector supplying 
low-income housing, one of the reasons the private sector won't 
build it is that they know that the cost of insurance alone has 
made the cost of that unit prohibitive and that people won't 
rent it at the price that they have to build it for and rent it 
for; and, therefore, they just have put their money someplace 
else.
    So until we get a handle on insurance in coastal America, 
you are not going to see the rebuilding we need. And I very 
much appreciate Congressman Thompson pointing that out.
    The third thing is, going back to my hometown with a budget 
of $16 million and your hometown with a budget of $6 billion, I 
think it is fair to say almost every one of my supervisors can 
operate a track hoe, most of them can fix a generator, but they 
are a little uncomfortable talking to Wall Street. Your city 
council, on the other hand, probably has just the opposite 
skills. So when it comes to dealing with FEMA, what our local 
mayors, what our local supervisors, what our local city 
councilmen desperately need is a FEMA shadow who is there to 
help.
    And I saw this over and over again after the storm. FEMA 
needs a corps of highly trained people who know the rules and 
who can be Tommy Longo's shadow for the months after the storm 
and, wherever Mayor Longo goes, that guy is with him. And if a 
problem is presented to him, be it debris removal, be it fixing 
a sewer line, be it picking up the trash, all the things that 
we take for granted that are suddenly gone and you have to do 
over, that Mayor Longo can turn to him--and remember, keeping 
in mind that his budget is probably about $10 million a year 
for the city of Waveland, and so an expenditure of $1 million 
or $2 million or $5 million is a huge percentage of his annual 
budget.
    He needs somebody he can turn to and, "Can you help me with 
that? Will my Nation pay for that bill? And will you sign your 
name to it?" Because what we saw, Madam Chairman, was just the 
opposite. We saw a steady stream of people who would come in 
for a week or 2, representing FEMA, and this one would make a 
decision and said, yes, we will reimburse that, then he leaves. 
He goes back to being a forester or an expert at Agriculture. 
But most of them were drawn from other agencies in the Federal 
Government. They really didn't know the rules. They gave the 
mayors advice, and then they left. None of them would sign a 
document that says, "Yes, I am Jim Jones, I represent FEMA. 
This is my decision, and you can hold this it up to whoever 
holds my place. And the Federal Government is going to back 
this up, because I know the rules, and this is what you can do, 
and this is what you can't do."
    To this day, that would be of great benefit to Mayor Longo, 
to Mayor McDermott over in Pass Christian, and Mayor Favre. Any 
of our mayors desperately need somebody who can stick with 
them, tell them what the rules are, and put their good name on 
the line, saying, "Yes, our Government is going to back this 
up."
    The third thing is the flood plan. The National Flood 
Insurance Program, Madam Chairman, needs some desperate 
changes. Mayor Warr and I had a conversation just this week, 
and he has concerns that, should his city--this is the city of 
Gulfport, the second-largest city in Mississippi--should his 
city accept the flood maps, that he would be in a situation 
where houses that made it through Katrina but are now at an 
elevation below what the Federal Government is going to 
recommend would, in effect, be doomed to never be being 
improved, that he would never be allowed to give that home that 
made it through Katrina another building permit for remodeling, 
for an addition to it, or any other changes to that house. And 
that just doesn't make sense. If a house made it through 
Katrina, what I consider to be at least a 300-year storm, it is 
probably going to make it through the next one.
    And, yes, if we have to make it through some changes to the 
Federal Flood Insurance Plan to prevent repetitive losses, then 
let's do it the way the insurance company does it, and that is, 
the guy who gets a lot of speeding tickets pays more on his 
insurance than the guy who doesn't. The guy who hang glides 
pays more on his life insurance than the one who doesn't.
    So if a home has repetitive losses, charge them a little 
bit more, but don't tell them that you can't tell them you 
can't modernize that house, that you can't add on to that 
house, and in effect that it is stuck in that condition 
forever. And don't tell the city of Gulfport that they, in 
effect, have to be the bearers of bad news, that that house can 
never be fixed up.
    And lastly, Madam Chairman--and this is something that we 
as a Nation really need to look at; I brought it to the 
attention of the National Guard Bureau--that is a waterborne 
response to disasters. Most of America's major cities are on a 
major waterway, including your hometown and my hometown.
    One of the things that we did right after Katrina was, 
within days of the storm, I got on the phone with Admiral 
Mullen, and he had a Navy amphibious assault ship off the 
Mississippi Gulf Coast, because all of our hospitals had gone 
underwater. He flew radios to those hospitals, with the 
instructions that if someone comes in with something more 
serious than you can handle, we will fly a helicopter, we will 
get that person, we will take them out to the ship, and we will 
do whatever needs to be done, whether it is someone who hasn't 
used a chain saw for 2 or 3 years happens to cut off their own 
hand or someone who comes home to a slab, as Congressman 
Thompson described, and sees it and has a heart attack because 
they realize everything they owned is gone. There are any 
number of scenarios that happened in my hometown that could 
well happen to your hometown, and we need to have a response 
that comes from the city that provides electricity, that is 
capable of providing water, that is providing emergency 
medical, and, most importantly, fuel.
    Congressman Thompson lives about 200 miles from where I 
live in Mississippi. The roads from where I live to the east 
and west, the bridges were all gone. The only road left was a 
road to the north to where he lives. There was no gasoline 
between my house and his house--not for a day, not for 2 days, 
but for weeks after the storm. And so, again, you are going to 
need a way to get fuel in, not only for an individual to get 
out of there, but for the first responders to get out and help 
people.
    In the case of Hancock County, they lost every single 
vehicle. This is a place where the same families who lived for 
300 years. They know what floods, they know what didn't flood. 
They parked their vehicles in a place that had never flooded in 
300 years. Every one of them went under water. They made a very 
heads-up call to break into the local car dealership, literally 
going from vehicle to vehicle to see which ones would start. So 
now they had vehicles but no fuel.
    If we as a Nation had--there are fleeting operations that 
supply fuel by barges. There were bargeloads of fuel in 
Pensacola and Mobile just sitting there. If our Nation had had 
a plan in place, those bargeloads of fuel could have gone to 
waterfront communities like Gulfport, Biloxi, Pass Christian, 
Bay St. Louis, then we would have been months ahead in our 
disaster relief.
    And the same thing for your city, Madam Chairman. If 
something happens here, there is a pretty good chance the 
bridges are going to be out, and so the way to get help in is 
going to be through the Potomac River. The way to get help to 
Chicago is from the Great Lakes. The way to get help to New 
Orleans is from the Mississippi River, et cetera, et cetera.
    So I would hope those are some things that your Committee 
would look at, hopefully that the Armed Services Committee will 
look at as well, and things that, again, based on what happened 
in Mississippi, could well happen in your community. We weren't 
ready for it last time. We sure as heck had better be ready for 
it next time.
    Thank you very much.
    Ms. Norton. Thank you very much, Representative Taylor.
    Representative Pickering?
    Mr. Pickering. Madam Chairman, thank you for having this 
hearing here today.
    And I want to thank my colleagues, Chairman Thompson and 
Chairman Taylor, as we try to work together as a State and as 
we work together as a delegation to get the resources and, as 
we look long-term, to get the reforms that we need to speed and 
accelerate the recovery, prepare for the next storm and 
disaster, and hopefully help the rest of the country learn from 
what we went through, so that the recovery and rebuilding and 
the preparation can be better, not only for Mississippi, but 
for every State that faces either a man-made disaster or a 
natural disaster.
    As we are almost 3 years from the storm, we are close 
enough to remember what has happened but we are far enough away 
to see more clearly. And what I would like to do is put some 
things in context from what we have seen and experienced as a 
State and as a people.
    Congressman Taylor has talked about the need to have both 
military coordination, Armed Services--this Committee has been 
very helpful, Madam Chairman, both under Republicans and 
Democrats, in getting the resources to our State. Congressman 
Thompson on Homeland Security and all the things that he has 
done and oversight to push and to continue to call the 
attention of FEMA and Homeland Security to what needs to be 
done now.
    But what is important in context, $5.4 billion was sent to 
Mississippi through CDBG grants. About $3.8 billion has been 
either awarded or obligated. As we look at that, one thing that 
is significant--and this is in the overall context, is I just 
met with the new head of--the Katrina czar. I believe we have 
appropriated about $120 billion as a Congress. We have 
obligated $80 billion. We have expended $60 billion. So, 3 
years after a storm, roughly half the money that Congress made 
available has been spent. And if you look in Mississippi at the 
$5.4 billion, we are roughly about 50 percent of those funds 
being expended in our State.
    What slows down a recovery--and what we have to remember, 
the longer the recovery, the higher the cost. The greater the 
paralysis of recovery, the more businesses leave, people leave, 
and opportunities are lost. So we ought to do everything we can 
to accelerate the recovery and accelerate the assistance so 
that the investments can be made as close to the storm as 
possible. Debris takes too long to clean up, and as we look at 
the urgency of the reform, hopefully we can look at ways to 
accelerate the cleanup phase.
    Communications is critical. And I serve on the Energy and 
Commerce Committee. We are now going through a public auction 
of spectrum, and one block of that spectrum is set aside for 
public safety so that we could have, for the first time since 
9/11 and Katrina, a nationwide public safety network that will 
speed and accelerate interoperability. And the grants that need 
to be given to communities, whether it is through Homeland 
Security or through other programs, are critical to having both 
the network and the equipment that is nationwide and 
interoperable.
    The insurance reforms that Congressman Taylor and the rest 
of the delegation and Governor Barbour have supported, whether 
it is through the Federal flood program or trying to find other 
creative solutions to stabilize coastal insurance markets. And 
as we go to the conference on the housing legislation here, I 
am hopeful that we will be able to find the solution that will 
help bring stability. And I want to commend Congressman Taylor 
and his leadership for fighting for what is probably the most 
important thing in recovery at this point, and that is 
available, affordable insurance to the Coast.
    Come next year, I hope both Senator McCain and Senator 
Obama, whichever one wins, makes reforming our disaster 
response and recovery bureaucracy a high priority. And just 
like Congressman Taylor mentioned, we will probably see another 
terrorist attack or the possibility of a weapon of mass 
destruction in our lifetime; we will see another hurricane 
similar to Katrina. And if that is the case, then we need to 
make sure that we put in place the reforms in communication and 
recovery and housing and response and everything that we can do 
to prepare for that.
    Both 9/11 and Katrina shook our Nation, and we have had 
select Committees on both. Congress has had multiple hearings 
and studies. But we have not really reformed the system and the 
structure, which is obviously broken. The levees in New Orleans 
are to keep the waters out. Unfortunately, the bureaucracy of 
FEMA has become a barrier to getting assistance to our 
communities in a rapid and efficient and cost-effective way.
    When Congressman Taylor talks about getting an answer from 
FEMA in the early months after a storm from one official and 
then a second team 3 years later reverses that, that paralyzes 
the recovery. And it prevents people from making good decisions 
in the beginning, and it paralyzes communities who follow those 
decisions at the end.
    We have a case in my home county of Jones County that is a 
perfect example in that an official was told that they could do 
a contract and they followed the process; now that is being 
denied, and it is under appeal 3 years after the storm. And 
these counties are much smaller. They don't have the means and 
the finances to be able to cover those costs and to have the 
long delays, the indecision and the paralysis that follows.
    I do hope that we have comprehensive reform that addresses 
all parts of the recovery, from the cleanup to the housing. I 
am proud of my State for doing some--one thing that we need to 
remember in context: We have never had a CDBG program to 
replace the housing after a storm like we did in Katrina. And 
this Committee and Congress should be commended for finding a 
way to make those funds possible.
    I want to commend our State for finding a new way that I 
think will change temporary housing, that we go from trailers 
that are unsafe and unhealthy to cottages that will truly 
transform housing after a storm or housing after a terrorist 
attack. And that was something that was done through this 
administration and through the support of Congress, and I am 
proud that that has happened.
    We do need to get a communications solution. And we do need 
to find a way that public assistance funding is still not tied 
up in knots 3 years after a storm. The insurance model of 
giving States an assessment of the damage at the early part of 
recovery and then making money available to them without a lot 
of bureaucracy, red tape and strings attached so that each 
community can design a plan, make the payments, recover and 
rebuild as quickly as possible, I think is a much more cost-
effective way, both for the communities and for the taxpayer.
    Madam Chairman, I thank you for the time you have given the 
delegation, the assistance that you have given our State and 
the communities. And I do hope that reform in the next Congress 
is a high priority for either administration and for the 
leadership of the House and the Senate.
    And thank you very much.
    Ms. Norton. Thank you, Representative Pickering.
    And the reviews that were of what has happened in the last 
3 years from all three of you has been helpful to us. This bill 
that you spoke about the House passed involving insurance, that 
was of course the great issue that came out of this disaster, 
of both Mississippi and Louisiana, but particularly for 
Louisiana, where--excuse me, Mississippi, who was really 
affected by this.
    I have to ask you, do you know, was that bill passed in the 
Senate?
    Mr. Taylor. Madam Chairman, we didn't get a lot of help in 
the Senate. So the National Flood Insurance Reauthorization is 
due by September 30th. It is going to be conferenceable, 
because it passed the House. And one of the things that I would 
like to go on the record is asking you and every House Member 
and Speaker and Chairman Frank that we insist on the preserving 
the House position. Because the Senate did absolutely nothing 
toward that end.
    Ms. Norton. So they have not had their own bill?
    Mr. Taylor. They have basically taken the existing National 
Flood Insurance Program and reauthorized it without making any 
changes.
    Ms. Norton. If it comes to conference, I certainly hope we 
have an opportunity to deal with this problem that came out 
of--as you say, it is not going to be--we are now forewarned, 
that this is what happens, not just water but wind.
    Mr. Taylor. Madam Chairman, I neglected to ask. My staff 
went through a heck of a lot of trouble to type up a beautiful 
statement, and I would like to submit it for the record so that 
their work does not go in vain.
    Ms. Norton. Indeed, of course your statement and the 
statements of the entire delegation we will be pleased to 
receive for the record.
    Chairman Thompson, you mentioned the National Disaster 
Housing Plan. We were set to have a hearing on this. And, of 
course, true to form, FEMA was late then, continues to be late. 
And part of the problem we have had with FEMA, with really 
major, major plans that are due--I have seen it in your 
Committee, as well--is, no matter how much notice they have, 
they can't manage to get it done. We talk about recovery in 
Mississippi; we haven't yet had the kind of recovery I think 
taxpayers have a right to expect in FEMA.
    Let me ask all of you about this housing situation. You 
testified, Chairman--I was really shocked to hear this, sounds 
more like a big city--that in the entire State of Mississippi, 
there are only 1,500 rental properties. And, of course, in my 
opening statement, I was concerned about the trailers and would 
have to ask you all about those trailers. I think you also 
testified that most of the people who haven't gotten back were 
renting.
    Now, with no rental housing stock being produced, then you 
have this DHAP assistance ending in March 2009 with no rental 
housing. You are also faced with these--we will be asking FEMA 
about these scandalous trailers that people are living in. We 
believe from the testimony we received on the trailers that, 
the hotter the climate, the more these issues are likely to 
come.
    I would like to hear from you, what do you think should be 
done here? Representative Thompson said at least extend the 
deadline.
    Mr. Thompson. Well, I think you are correct. You know, 
Congressman Taylor lives there, but if anyone who can visualize 
the Gulf Coast before Katrina who can travel there now can just 
see the void. And that void, almost 3 years later, in my 
estimation, is totally unacceptable, because there are a lot of 
people who want to come home, but there is nothing available 
for them to come home to, from a housing perspective. So they 
have people who are traveling 75 to 100 miles just to go to 
work, because there is no housing any closer to the jobs.
    And, Madam Chairman, the manner in which FEMA has treated 
communities can't be, I think, emphasized any more. Local 
government, as Congressman Taylor has already indicated, are 
already strapped for money. And so, with this hodgepodge of 
forms and individuals showing up, they are constantly being 
threatened by not having reimbursements made.
    But more importantly, Madam Chairman, I would suggest that 
you look at the entire appeal process, where the person who 
makes the decision is the reviewer of that decision when it 
goes to appeal. So I don't know many people who will say, 
"Well, based on the evidence that you presented upon appeal, I 
was wrong." So I think you have to have another----
    Ms. Norton. So the reviewer reviews his own decision. It 
then goes someplace else after that?
    Mr. Thompson. That is right. And so basically that next 
step--and I think it probably would be beneficial to the 
Committee if you asked FEMA in a timely manner to provide you 
some of their statistics on how those appeals have progressed, 
the time line that they have had to go through, and how many 
actually were reversed at each stage.
    And I am involved in a number of them in cities in 
Louisiana, as well as Mississippi, and the decisions reached 
don't correspond with the information presented. And in one 
instance, FEMA refused to give local government what it was 
spending for the same activity that they turned down.
    So if a community is spending $16 per cubic yard for debris 
and FEMA is spending upwards of $30 per cubic yard for debris 
removal, that community gets denied because they are paying too 
much, when FEMA, who has contracted through the Corps of 
Engineers, is paying twice as much.
    So some of the decisions--and I know other colleagues and 
Congressman Taylor is intricately familiar with that whole 
process--it just doesn't make sense. And I would suggest that 
you look at that also.
    Mr. Taylor. Madam Chairman, if there was ever a time for 
HUD to step forward and remind people that the first letter in 
HUD stands for "housing," it was after Katrina.
    And Congressman Thompson makes an excellent point. In my 
home county, the county courthouse and both city halls, in 
fact, Mayor Longo, his city hall, there was absolutely nothing 
there. In the case of Bay St. Louis, it flooded and was 
inoperable----
    Ms. Norton. You are talking about the public city hall?
    Mr. Taylor. Gone. There was nothing there. And the next 
morning, his firehouse, gone.
    Ms. Norton. There is no rebuilding of that in progress?
    Mr. Taylor. No. He is still operating out of a trailer.
    But I want to use the analogy of just debris removal. In 
the case of debris removal, because these counties--and my home 
county, in particular, was so devastated, the Nation at least 
walked in and said, "We can do this one of two ways. You guys 
have no buildings, you have no equipment. Because you are at a 
loss, we are willing to do the debris removal for you, and we 
will make the decisions. Or we will give you, the local 
government, the option of doing it, and we reimburse you." And 
as Congressman Thompson pointed out, it was more expensive to 
do it at the Federal level, but it was fewer headaches.
    In the case of housing, they never made the same offer. In 
the case of housing, they never said, "You know what, Mayor 
Longo? You have lost every building. You have lost every 
vehicle. You have lost all your water lines. You have lost all 
your sewer lines. You have lost every police car, fire truck, 
everything. Maybe you have enough work to do, and how about we 
offer to build some low-income housing for you? That is one 
less headache you have to worry about. You point to a place in 
your city where you are willing to build some, and we will take 
that responsibility from you, just like we were willing to do 
for debris removal," and just like a former Chairman of this 
Committee did in rebuilding the two major bridges that were 
destroyed by the storm.
    Secretary Mineta came down and said, "The bridge is gone. 
It has to be replaced. Don't worry about it. We will pay for 
the bridge as long as you live by the Federal guidelines," and 
it got replaced.
    In the case of housing, they have turned around to cities 
that have to replace fire trucks, police cars, have to replace 
city halls, have to replace water lines and sewer lines, have 
to fix roads, have to do all sorts of things, and just threw 
one more burden on them.
    So why not at least in the future say, "We will reimburse 
you, or we will do it ourselves. You tell us where to put it, 
and we will take that headache away from you." That offer was 
never ahead, and it should have been made.
    The same thing with the Department of Education. They 
should have stepped toward and said, "We will either reimburse 
you to rebuild these schools. Or, you know what? You have so 
many other problems, you just point to a place where you want 
us to build it and we will build it."
    If there was ever a time and a place for the Federal 
Government to step in and offer people that option, it is after 
a disaster like that. And, again, we need to learn from our 
mistakes. That was a mistake that was made in Mississippi. It 
doesn't need to be made again.
    Ms. Norton. All of you are for extension of this March 2009 
deadline, I guess, when the funds run out, temporary funds run 
out? March 2009 when the DHAP assistance runs out?
    Mr. Taylor. Madam Chairman, it is going to be an ongoing 
challenge for a long time. The last I counted, there were still 
6,000 families living in temporary travel trailers. And I can 
assure you, if you have ever visited one, it is not because 
they want to.
    Ms. Norton. Have the trailers in Mississippi had any of the 
problems that have led to court suits and the like in 
Louisiana?
    Mr. Taylor. As with everything else in life, there are good 
trailers and bad trailers. And what had happened is, because of 
the necessity of buying a lot of them in a hurry, they bought 
some inferior brands that had used wood that was treated with 
formaldehyde. Think about it, if you are going to use it one 
weekend a month, it is one deal, which is what it was intended 
for. If you are going to live in it for 3 years, day-in, day-
out, then the results of the exposure to that are going to be 
significant.
    And hopefully, based on what Congressman Thompson does, we 
have changed the Federal procurement laws, so when this happens 
again, that will be one of the prerequisites of the Federal 
laws, that we don't buy trailers that have formaldehyde in the 
building materials.
    Ms. Norton. Chairman Oberstar is here, and we are pleased 
to have him, even for a short time. And I want to ask him if he 
has any comments he would like to make or any questions he 
would like to ask the Members.
    Mr. Oberstar. Thank you, Madam Chairman. I do have to 
leave. I always have five or six things going on for the 
Committee of Transportation and Infrastructure at the same 
time. So I beg your indulgence, and I want to thank our 
colleagues for being here.
    We all know we are on the front line when disaster hits, 
because our communities are on the front line, whether it is 
the blowdown of trees in the Boundary Waters Canoe Area in my 
district, 26 million trees blown down in a 100-mile-an-hour, 
straight-line winds destroyed 3 years' worth of timber harvest 
in the State of Minnesota, or fire along the Gunflint Trail 
that chased people out of the resorts and the housing in that 
area, or flood and wind and storm damage in the Gulf States. 
And we have all seen it, watched in horror as it spread out 
upon our television screens. I recall sitting there as Katrina 
hit with my wife, who is from New Orleans, as Mr. Taylor well 
knows, and saying, "I know these streets. I know the people who 
live there. I know what is happening."
    On the FEMA trailers, her two brothers still live in New 
Orleans. He brother went into see one of the family friends, an 
employee of the family, who is in a FEMA trailer, and said he 
opened the door and the fumes just about knocked him out.
    I don't need to read that in a newspaper. You hear it, as 
you do, from your constituents. You see it as you live your 
lives. Mr. Taylor had his own home just blown right out, if I 
recall rightly.
    Mr. Oberstar. Now, Congressman Pickering said, I think very 
pointedly, the cleanup and debris removal need to move faster. 
What are the obstacles to cleanup and debris removal that you 
hear on the front line.
    Mr. Pickering. A lot of it is the system by which it is 
done. They do it on a cubic-yard basis.
    Now, at the beginning of our storm, they did remote sensing 
imaging and assessments on the ground, and they projected how 
much debris that we would have. And at the end of that storm--
and this is more debris than any storm in the history of the 
country--the debris they projected at the beginning of the 
storm was exactly what we cleaned up.
    But to do it, they did contracts on a cubic yard. And if 
you do it based on a cubic yard, you have to have a compliance 
system to prevent what is called debris-farming, that people 
just fraudulently just create debris. And so they will have up 
to three to six Federal employees counting every dumptruck when 
it is loaded and then six when every dumptruck is unloaded. And 
there is a whole bureaucratic compliance system.
    It would be better to do contracts with the technology that 
we have today so that you do contracts in geographic areas, so 
that you don't have to count every truck and every cubic yard. 
And they measure every--you have trees and hangers and limbs, 
and they pay and reimburse by stumps, and it is a very 
complicated, time-consuming, and costly, bureaucratic way of 
cleanup.
    If they would do it more on a geographic--that way there is 
no incentive for fraud. You cannot defraud; therefore, you 
don't have to have this complicated compliance system that 
really slows--and what happens, if you don't have six people to 
count every dumptruck, then you just have to wait weeks or 
months until you can clean up. It's a much more efficient way 
that if we would change the way that the contracts are done.
    And, again, as Congressman Taylor mentioned, you can do a 
local option, which is less costly and usually faster, twice as 
fast and usually half the cost. Some communities didn't have 
that capacity; they needed the Federal help. But, again, if you 
contract based on geographic areas versus a cubic yard, I think 
that that would be the most significant reform that you could 
have to speed the recovery, save the taxpayer and clean up more 
quickly.
    Mr. Taylor. Mr. Chairman?
    Mr. Oberstar. Thank you. That is a very thoughtful 
suggestion.
    Congressman Taylor?
    Mr. Taylor. If I may, again, you, because of your bride, 
have a connection with the area and an idea of what happened.
    I thought the biggest mistake that was made was, in the 
beginning, keep in mind, no fuel, no running water, no food, no 
stores. Mayor Longo, Mayor Favre actually made one of the 
smartest calls I saw when they allowed police-sanctioned 
looting of the local grocery store, the local Wal-Mart, for 
people to get a change of clothes and food. Because FEMA had 
the attitude that they are not going to do anything for the 
first 3 days. Well, when everything is gone, that is a bad way 
to do business. FEMA needed to be there quicker.
    So the early decision to give a national firm the debris-
hauling contract was probably not a bad decision for the first 
30 days, because there is no fuel local, there is no 
equipmentrepair local. Everywhere you go, you are getting flat 
tires because there are nails everywhere. You can't get a tire 
patched locally, because there is no power.
    But, really, after about a couple, 2 or 3 weeks, fuel is 
showing up, tire stores are reopening, mechanics are back in 
business, and you have a person who has just lost his house, 
his car, maybe his job, and he is looking for something to do, 
and he is seeing this out-of-state firm making a bunch of 
money. He's going, "You know what? I can do that."
    In the case--again, the local bank president, his two kids 
have just graduated from college with advanced degrees. They 
went into the debris-hauling business because there was money 
to be made.
    And I am going to disagree a little bit with Congressman 
Pickering. I don't have any problem with paying it by the cubic 
yard, because it became almost a gold rush mentality. The more 
they hauled, the more they got paid, the quicker it got done. 
Guys were working Thanksgiving; people were working Christmas.
    The problem was the contracts went nationally rather than 
locally. In the beginning there was no choice but to do it 
nationally, because that person had to have deep enough pockets 
to bring in his own equipment, to bring in his own fuel, to 
bring in his own tents, bring in his own food, bring in his own 
showers, bring in his own everything. But within 30 days of the 
storm, those contracts should have been renewed, to give the 
locals a shot at it. They have lost everything. For goodness 
sakes, at least give them a shot at making some money 
rebuilding their own hometowns.
    And that opportunity was missed last time. I understand why 
it was done early on. But the big mistake was--and you are 
going to get a better price, because, after 30 days, again, you 
don't have to go several hundred miles to get fuel. You don't 
have to go several hundred miles to get your equipment fixed or 
to get something welded. You can get it done locally. That is 
going to result in the price coming down.
    And, by this time, you do have a pretty good idea of what 
it really costs to move that cubic yard of debris. I am 
convinced that you would not only put locals to work, but you 
would get a better price for the Nation. And that is one of the 
things they failed to do that we need to learn from the 
mistakes that were made last time.
    Mr. Oberstar. Congressman Thompson?
    Mr. Thompson. In addition to what Congressman Taylor has 
said, one of the things I think helps bring communities back is 
employing people who are victims of the particular situation.
    With respect to procurement, FEMA will have to change the 
tiering of contracts. Because what happens is, beyond the 
second tier, there is no appeal process for the little guy. So 
if there is a dispute on payment, he is out of luck, or she is 
out of luck.
    So I think the proper oversight on whoever is doing the 
contract is absolutely essential, because basically FEMA has 
said, "Well, as long as who you contract with, we can settle 
that dispute. But if there is another party to the contract, we 
are done." And so, we saw a lot of good, hard-working people 
who really came in, took contracts below what was generally 
accepted, and basically--I don't want to use your term again--
but got screwed in terms of payment. And that is not what this 
should be about.
    So I think, going forward, we should have a mechanism for 
dispute resolution for contracts that would satisfy that local 
person who is really trying to just assist.
    Mr. Oberstar. Mr. Chairman, we have three elements here. 
This is a lessons-learned hearing, to learn from the past and 
to apply to the future and fix these problems.
    And, in my district, we didn't deal with FEMA in the 
cleanup. We used the Forest Service, because it was on national 
Forest Service land that that occurred. And the Forest Service 
has a different contracting practice, and that went very 
smoothly. They had people on the ground doing salvage-logging 
and chipping within a week.
    And there are some lessons to be learned from how the 
Forest Service proceeded, from what Mr. Pickering has said, Mr. 
Taylor has said, and Mr. Thompson has said, in getting the 
contracts down on the local level. And what you have said is 
all on record. We are going to sift through this and apply 
these lessons learned.
    Gene, you had something else?
    Mr. Taylor. Mr. Chairman, last thing--and, again, I very 
much appreciate my colleagues being here, and I hope we all 
learn something from this--timeliness and certainty of payment.
    I think you were out of the room when I expressed to the 
Chairwoman, we could have done a huge service to every city, to 
every county, if FEMA had assigned someone to literally shadow 
each mayor and the president of every board of supervisors or 
county commissioners, however you want to call them, who would 
be there when, "Gee, my whole budget for a whole year is $16 
million, and I am looking at a $5 million expenditure. And if I 
make a mistake, I have ruined this town. Will you reimburse me 
for it?" And they need someone there to shadow that mayor and 
say "yes" or "no," and, "I'm signing off on it right now, and 
here is your guarantee that it is going to happen."
    The second thing is the certainty that the Nation is going 
to keep its word and the timeliness of payment. And one of the 
things, going back to what Congressman Thompson said, that 
keeps the locals from getting involved is he can't afford to go 
6 months without getting paid, he can't afford to go a year 
without getting paid.
    Asprit, whether you love them or hate them, had deep 
pockets. And because they had deep pockets, because they had a 
record with the Corps of Engineers, they could borrow money 
from banks, knowing that they would eventually get paid. That 
is not going to work for a one-man trucking firm. That is not 
going to work for a guy who has got one back-end loader. He has 
to get paid on a regular basis, and he has to get reimbursed 
fairly for his work, and he can't wait a year.
    So if we are going to get the locals involved, there has to 
be a certainty that they are going to get paid in a timely 
manner, and they have to know and their bankers have to know 
that that check is coming.
    Mr. Pickering. Mr. Chairman, let me follow up on a couple 
of different things.
    As we look back on the storm, Mississippi contractors, 
subcontractors, if I remember, received less than 3 percent of 
the total money spent on contracts. So to put it in context, 97 
percent of the money went to out-of-State contractors.
    So if you are looking to recover a local economy--and so 
what Gene said, Congressman Taylor said, about you may want to 
do a national firm in the early recovery days but then quickly 
transition to local or State-based contracts, pre-approved 
contracts, State plans, that we should incentivize that.
    Let me go back a little bit to the disagreement between 
geographic and cubic yard. One of the disadvantages of doing a 
large contract on cubic yardage is that thesubcontractors, the 
small guys--the big guys will take what are the debris-rich 
areas where there is lots of debris, they can quickly clean it 
up, and if it's on a cubic yard, that area is going to make a 
lot more money. And then the smaller guys get the areas where 
there is not as much debris. And that is one reason I think a 
geographic area would be fair to the small and the big 
companies and more efficient.
    But let me offer a compromise. I think Congressman Taylor 
is talking about the incentive system, that if you are doing it 
on a cubic yard, that you might have an incentive to clean it 
up more quickly. That can be corrected through your contracts 
of giving time-based incentives in a geographic area. Or, at 
the very least, direct FEMA to do some contracts on a 
geographic basis and some on a cubic yard, and let's see which 
is faster and cheaper.
    Ms. Norton. With the bell having rung----
    Mr. Oberstar. We are going to have votes here. I just have 
one other comment, and that is about the insurance issue.
    You have addressed the problem of flood insurance and the 
dispute over interpretation of whether storm surge is a flood 
or some other factor. And we need your thoughts about that. 
That was a big issue. We have to fix this problem when we do 
these changes for FEMA.
    And I won't prolong the discussion here, as I have to get 
to another meeting and we have votes and the Chair has some 
other issues.
    Ms. Norton. Well, I want to thank the Chairman. It shows 
the importance of Mississippi and this hearing, that the 
Chairman himself has stopped by.
    I want to ask the Ranking Member, before he runs off, if he 
has anything to ask these Members.
    He does not.
    I can't let you leave without, of course, asking about this 
notion that Representative Thompson raised. While everyone has 
talked about the lack of rental housing, not one unit being 
built in the State, not by the Community Development Block 
Grants, and yet he says that the Governor requested a 
commission to reprogram $600 million intended for construction 
of low- and middle-income housing for a port-extension project.
    I am sure that would be revenue-generating, ultimately. But 
with what you described, I am concerned to hear that.
    And that there was a diversion of recovery funds to expand 
the port, raise judicial salaries, and build roads to a Toyota 
plant in north Mississippi.
    Did FEMA grant the permission for the transfer of funds? 
How has this been handled?
    Mr. Taylor. Madam Chairman, I want to echo Congressman 
Thompson's remarks. That money was designated for hurricane-
ravaged areas, and I would hope that it would stay there.
    In the case of the port, for a point of clarification, it 
is a State port. It was wiped clean by the hurricane. The 
channel that leads to it is a federally maintained channel. So 
whatever improvements that are made there are in all likelihood 
going to by heavily subsidized by our Nation because of the 
State's financial situation and the fact that it was a natural 
disaster.
    The Governor made the request since there were, as 
Congressman Thompson correctly pointed out, no one in the 
private sector was willing to take that fund and build low-
income housing. The Governor said, well, since that money, 
rather than have it do nothing, can we transfer it to what we 
know has to happen to get this State-owned port back up on its 
feet.
    Ms. Norton. So you are saying it happened because nobody 
was willing to take contracts to build low-income housing?
    Mr. Taylor. Yes, ma'am. And, again, that goes back to--and 
I hope we correct this in the future--insurance is so high that 
the private sector--and, again, it is apples and oranges. I 
think it is fair to say a Republican administration would 
rather see the private sector do this and be reimbursed. 
Democrats traditionally would have the Government do it, just 
keep it as a Government function.
    And this is one of those instances, because insurance is so 
high, $300 per unit per month just for wind insurance, that the 
private sector doesn't think they can build apartments that 
people can afford to rent, so they haven't built them.
    And this really is a case where HUD should have given every 
local mayor the option of saying, "You know what? You are 
overwhelmed. In my opinion, you are overwhelmed. You have all 
these other things to do. My first name is housing. I am 
willing to build some low-income housing. Our Nation is going 
to take that responsibility. You tell me where to do it and 
what you want it to look like." And they really never gave the 
locals that option. They should have.
    Ms. Norton. Well, I think you have a terrible dilemma there 
then.
    Is there anything else any of you would like to say before 
you go to the floor?
    Representative Pickering?
    Mr. Pickering. Madam Chairman, I think Congressman Taylor 
makes a good recommendation, that whether it's education or 
HUD, that they do give the local community an option to quickly 
go in and rebuild something.
    The CDBG was given to the State, and the State had to 
create a program. They have done a good job, under the 
circumstances, of creating something completely from scratch.
    The money that went to the port I do think is an important 
part of recovery. Four thousand jobs are tied to the port. And 
we need housing, but we also need jobs. And you cannot delink; 
they both complement each other.
    And the roads and Toyota--the entire State was declared a 
disaster. The Tupelo area, now, it is different, it was a 
completely different type of destruction. But it was still in 
the disaster area. It was approved by FEMA, and it will help 
the entire State.
    Mr. Thompson. Madam Chairman, at least toward the end, we 
get to differ.
    There is no justification for spending money 300 miles from 
the impacted area on a Toyota plant. If Mississippi is 
interested in wooing Toyota, then they should do it and do it 
in a proper manner. If they are interested in giving judges 
raises, then give it out of the money from the State coffers. 
But don't take the goodness of the Federal Government and use 
it for other purposes that you can't relate remotely to 
Katrina.
    And so I just think that, going forward--you know, block 
grant monies, Madam Chair, as you know, they are required to 
have a low- and moderate-income requirement. And rather than 
allowing those waivers to be granted, keep to the mission of 
the original intent.
    And so when you start doing waivers, people start doing 
other things with the money. And I think if the port--and I 
happen to know the port people. They do a wonderful job. But, 
you know, the people who are the most vulnerable really are 
suffering in this situation. And I just think that, if the 
Governor really thought it was in their interest, you know, he 
spent a good bit of his career here doing just that. He could 
have come forth and raised the issue. But we differ.
    I compliment you for the hearing, but I really think the 
lessons learned, unless we really put FEMA to task, will be 
repeated, should we have another disaster similar to Katrina. 
And that is unfortunate, 3 years later.
    Ms. Norton. If we don't learn from Mississippi and 
Louisiana, we really are slow learners.
    I want to thank you for this testimony.
    I understand what you are saying, Representative Taylor, 
about the kind of trade-offs and the rest that the Governor 
faced.
    Somebody is going to have to tell me about the judicial 
salaries. The notion that judges, who are already, I am sure, 
among the highest paid people in the State, could not have 
lived with their salaries I find particularly offensive. But, 
then, I am not in the State. Maybe there are poor judges in 
Mississippi. God bless them.
    Thank you very much.
    I do not have to go to the floor unless there is a vote in 
the Committee of the Whole. Therefore, we are going to continue 
with the hearing, with the permission of the Ranking Member, 
who indicated that he felt it was important to bring forward 
the witnesses. These are particularly important witnesses, 
because these are witnesses on the ground where the disaster 
occurred, still serving the people of Mississippi.
    And I am going to ask Marsha Meeks Kelly, executive 
director of the Mississippi Commission for Volunteer Service, 
to come forward; Sherry-Lea Bloodworth, director of Long-Term 
Recovery, Hancock County; and Michael Huseth, executive 
director of Lutheran Episcopal Services, if you would come 
forward to testify at this time.
    Perhaps it would be best, although the mayor is a public 
official and we generally have public officials on the panel 
with public officials, I think Mayor Tommy Longo would serve us 
best if he were to be on this panel as well. We don't stand on 
protocol. We are trying to get some information here.
    And because the mayor is a public official, I would ask him 
to go first, the city of Waveland.

TESTIMONY OF TOMMY LONGO, MAYOR, CITY OF WAVELAND, MISSISSIPPI; 
MARSHA MEEKS KELLY, EXECUTIVE DIRECTOR, MISSISSIPPI COMMISSION 
  FOR VOLUNTEER SERVICE; MICHAEL HUSETH, EXECUTIVE DIRECTOR, 
LUTHERAN EPISCOPAL SERVICES; SHERRY-LEA BLOODWORTH, DIRECTOR OF 
        LONG-TERM RECOVERY, HANCOCK COUNTY, MISSISSIPPI

    Mr. Longo. Thank you, Madam Chairman. Thank you.
    I just wanted to add, while Congressman Taylor, Pickering 
and Thompson were speaking, I just wonder if it is too late for 
the Department of Education or HUD to step up to the plate. 
Because, at this time, all the students in the Bay Waveland 
School District in the lower grades, the middle school, the 
kindergartners, 1st-, 2nd-, 3rd-graders are still going to 
school in trailers, and they are going to be going to school in 
trailers next year, because there is not enough funds. Whether 
through FEMA, through the different agencies where they have 
been able to accumulate funding, there is not enough money for 
them to rebuild their schools yet. So I wonder if possibly, at 
this late moment, if it still couldn't be worked out.
    Not only did HUD not step up--which would have been a great 
idea, if they would have offered to rebuild, because, as 
Congressman Taylor was pointing out, the problem with local 
developers or national developers, actually international 
developers--they came in from around the world. I spoke to over 
150 developers from across this Nation, from Russia, from 
Italy, from Japan, that wanted to build low-income housing. 
They saw this as a gold rush. But what happened when they got 
here was the density that they would have had to build, the 
cost of insurance, the cost to build affordable housing was up 
75 percent from what it was prior to Hurricane Katrina. The 
cost of land had almost doubled. Then the cost of insurance was 
up 10 times. So what was an affordable home at $75,000 to 
$85,000 pre- Katrina was now $165,000 to $175,000. So they 
could not build what was affordable housing.
    That was in the market to build affordable housing. On the 
other hand, Waveland and Bay St. Louis had our housing 
authorities. I had three different properties that had 
cumulative with 300 low-income housing. And it was a five-star 
HUD housing authority, so it was very excellently run.
    There was no money for us to even build back our housing 
authorities, which is a HUD-run program, because, pre-Katrina, 
the goal or the plan, the focus was to do away with housing 
authorities, the entitlement, or the generation after 
generation being grown up, what they were focused on, if I 
understand it correctly, is to get these individuals out into 
the community, spread them out throughout the community, make 
them first-time homeowners, give them pride in their own homes. 
And, as in New Orleans, they demolished the St. Thomas housing 
project and a couple of others. And that was the focus pre-
Katrina.
    So when Katrina hit and wiped out these authorities, wiped 
them off the face of the Earth, it was like, okay, it has 
already been done for us, so we don't have to do that, and we 
are not going to put money back in to rebuild them.
    But in small communities of 10,000, like Waveland is, the 
housing authority was run properly, and it did it what it was 
supposed to do. Ninety percent of the people in there were 
senior citizens or handicapped that needed to be in a housing 
authority. The other 10 percent were people that fell on hard 
times. The director made sure they had jobs. It was a stopover, 
a stop-gap measure to help them get on their feet until they 
could get on their feet and they move forward.
    So monies were not made readily available to rebuild those 
housing authorities. And the first housing authority unit has 
not been rebuilt yet in Hancock County because of that problem.
    So you have the problem with getting contractors to 
rebuild. Then we have the problem with rebuilding what we 
already had. So that is 300 senior citizens in Waveland alone 
that have been trying to move back home and haven't been able 
to, almost 3 years since the storm.
    The situation with debris removal, after the hurricane I 
made the decision in the city of Waveland to use local 
contractors. The citizens that we had left, quite frankly, were 
not going to be able to stay or people weren't going to be able 
to come back home if they didn't find a job. And those were the 
only jobs, because 100 percent of our businesses were 
substantially destroyed.
    So we did have two contractors in the north part of the 
county that had a history in doing debris removal after 
Hurricane Ivan and one other previous storm. FEMA knew these 
contractors. I was able to use them in the city of Waveland.
    Under our other agreement, once we hired them, they agreed 
to hire any local people. If there were ladies that could drive 
trucks, they would hire them to drive trucks. If not, they 
would train men or women to be flag men out on the roads or at 
the dump sites. They trained them for whatever jobs that they 
could do that were needed. If it was an individual that owned 
his own truck, they would hire him and his truck on. So for 
about the first 60 or 90 days, they hired everybody in Waveland 
that needed a job, and it worked extremely well.
    The big problem with that is now, almost 3 years after the 
hurricane, I still owe that contractor $5 million, because--and 
Congressmen Thompson and Taylor both touched on it--is I worked 
through that contract. We had no phones, no computers, no 
anything to get in touch with people. I worked with the FEMA 
specialist, debris-removal specialist, to get bids, to get 
contractors' quotes, to come up with a contract actually. And 
we did that, and it was $18.25 a cubic yard cradle to grave.
    Here in the last 6 months, it has been deemed that the 
reasonable cost I believe should have been around $13 and 
something. Well, I can name a number of cities and counties who 
have already closed out and paid upwards of $20 to $22 a cubic 
yard. The Federal Government paid up upwards of $30 a cubic 
yard. Waveland paid $18.25 a cubic yard, and they are looking 
at--you know, we are having to appeal the $18.25 and $5 million 
to pay to this local contractor.
    I am certainly not in the business of making sure that 
contractors make money, but these guys stepped up to the plate, 
hired local people, and they are going to end up possibly going 
out of business because they have had to finance these dollars 
and haven't been able to get paid.
    And, unfortunately, in the city of Waveland, having gone a 
year without any income, we certainly don't have--we are 
dependent upon FEMA to pay us as quickly as possible, because 
we can't float the monies; we just don't have them. We are a 
sales tax-based community, and we are living from sales tax 
check to sales tax check to run our city.
    One of the other problems in debris removal that just 
seemed ridiculous, really, on the ground was the rules and 
regulations, if you will. And in trying to make the decisions--
and always the right decision was eventually gotten too. It 
just took a long time to get there.
    But when they began where you could only remove the debris 
that you could reach from the right of way by reaching out, it 
took a month to clean up my downtown street, which is about 
three-quarters-of-a-mile long, because they had to keep coming 
back and getting somebody to push a little more debris to the 
right of way to where they could reach out and get it, where 
literally, in the bottom third of my city and in the northern 
third of my city, you could have taken a bulldozer and just 
started from one end to the other and just removed the 20- to 
30-foot debris fields that were left, because 95 percent of our 
residential structures were substantially destroyed also.
    So it would have gone a lot quicker if, on the ground, 
those decisions could be made. But what happens is we debate 
these things and argue about them and try to expedite things, 
but there was never anyone there on the ground that could make 
a decision.
    And I think that is what Congressman Taylor was alluding 
to. If there was something that was shadowing us that we could 
turn to and say, "Look, obviously this is what needs to be 
done; can you give the authority?" Because what eventually 
happened without someone like that, that had that authority, 
when we would get someone in the chain of command that did make 
the decisions, we have e-mails to back them up, we have 
supporting documentation, those decisions were made, we 
followed their recommendations, and we ended up having those 
monies taken back from us.
    One example, Madam Chairman, is we lost--Congressman Taylor 
alluded to this. In the city of Waveland, we lost every single 
building. Our historic city hall, built in the 1800s, three-
story concrete building, was reduced to a slab. We lost all of 
our fire stations. We lost our police complex. We lost, you 
know, every building. And every one of them was reduced to a 
slab. We have not begun rebuilding a building yet.
    We lost all of our equipment. FEMA met with us, and all we 
had to operate were a couple of donated firetrucks, and none of 
them met the specifications that the State Fire Marshal 
required. The decision was made for us to go out and buy two 
new firetrucks, which was one-third of the firetruck capacity 
that we had at that station. But there was so much dry mass 
throughout the city, all of this debris, that if there was a 
fire, anything that was left was going to be destroyed.
    We have all kind of documentation. We debated with them. We 
made sure, because normally FEMA only reimburses 50 percent, I 
believe it is, on that type of equipment. They said, "No, in 
this situation, we know that you all have no money. You are not 
going to have any for a while to purchase things like 
firetrucks, to be able to afford it. You have too many things 
on your plate. We are approving you to purchase these two 
firetrucks, and we are paying 100 percent." The PW was written 
that way. We have the documentation, et cetera.
    Firetrucks are specially built. We ordered them. The money 
was put in our account by FEMA. Three months later, it was 
taken from our account, and said, "Look, we made a mistake. We 
can't do that." And so we are left with trying to fund the 
additional $2.5 million to complete paying for those 
firetrucks.
    Finding someone that is there on the ground to help make 
the decisions and then be able to stand behind those decisions.
    Mr. Melton that is here today with FEMA, since he has come 
down and begun running the TRO, Mr. Melton is somebody that 
wasn't there on the ground at the time of the storm in the 
preceding months but he was involved. He came down and helped 
us a great deal. And so he knows what it was like, and he knows 
the reasons that decisions were being made. And he helped us a 
great deal. He is not someone that has been there since day one 
and is now burned out from being there since day one.
    So having somebody that is in an expert position like that 
that is dealing with it from day one through now is a huge 
help. Because, again, the next problem that we have is the PWs 
that have been written for almost 3 years on some of them, now 
we get to the point of where it is time to rebuild. We have one 
project right now that is in limbo.
    Those PWs were gone over every 3 months when new teams came 
in, and they were gone over with a fine-tooth comb. We get to 
the point now, 2 1/2 years later, FEMA gets the plans and 
specs. They go through it them. They approve them, send it out 
for bid. Two weeks into the bid process, then a team with FEMA 
comes in and decides that, no, we can't rebuild this project 
this way, and so now it is in limbo. Not only can we not 
rebuild the project that way, but if we have to redraw plans 
and specifications, we are not going to pay for it, you all 
are.
    So we have some serious issues, and met with General O'Dell 
about that last month. Hopefully, we can bring that to a good 
resolution so that we can begin building buildings in the city 
of Waveland and lifting morale and spirits.
    I have had some tremendous FEMA employees that I have 
worked with since the storm, Mr. Melton being one of them. It 
is not the personnel; it is the rules and regulations that they 
have been under. My staff and my team, we would love to work 
with FEMA to come up with a plan. We have had to come up with a 
new plan that stations materials and water and fuel and 
everything that we need for a week after a hurricane. FEMA 
needs to come up with something very similar. And we would be 
more than happy to work with them and help them come up with a 
solution to these problems.
    CDBG funds, we are about to--they are accepting 
applications on a phase four. We haven't seen a nickel from 
phase one, phase two, phase three. So any of those projects 
that have been funded by CDBG, it is a blessing, it is just 
that we can't begin to work until we get the money.
    As you know, with CDBG projects, I can't even--we have 
picked engineers and architects a year ago, but I can't 
officially enter into a contract with them under CDBG 
guidelines until I receive the CDBG final application and 
approval. Otherwise, I accept the responsibility to pay that 
engineer and architect. So that is the problem right now with 
the CDBG funds.
    I haven't even begun to touch on the things that I said in 
my testimony, but I greatly appreciate this opportunity. I 
believe we sent via e-mail a copy of my testimony. And I know 
we are short on time, but it is a vicious cycle, Madam 
Chairwoman.
    Ms. Norton. And, Mayor Longo, I want to assure you that 
your entire testimony is going to be entered into the record, 
and we certainly want to ask you a number of questions based on 
the testimony you have given. You have raised many questions, 
by the way, that has seeded me to ask FEMA officials when they 
come forward.
    If you are finished--I don't want to cut you off, but----
    Mr. Longo. No, ma'am. I am finished.
    Ms. Norton. Then we will go on to the next witness.
    Among the three of you, which of you would like to--Ms. 
Kelly?
    Ms. Kelly. Yes, ma'am. Madam Chair and all of the Members 
of the Subcommittee, on behalf of the State of Mississippi and 
the State Office of Volunteerism, I want to thank you for this 
Committee hearing.
    I can only tell you--and I have great compassion and 
respect for the mayor of Waveland. And Tommy, he has to work on 
a street level because that is his job, and he doesn't get the 
opportunity to reflect from 40,000 feet away because he is not. 
And, truthfully, if you had time for him, he could actually 
give you very specific pieces of information, as well as the 
other elected officials on the coast, the issues that are going 
on. But he cannot--and perhaps it is our southernism, we can't 
say things in a very short way; it is part of our story-
telling.
    And I say that to entre--I wanted to go first because I 
have colleagues here. As the State's Office of Volunteerism, we 
stepped in at the request of the Governor into a role that we 
had never played before, and that was to oversee donations and 
volunteers. I can only say that we got on-the-job training. 
Yes, I would have loved to have an expert on my side to shadow 
and train us, but we were not given that luxury as well.
    But I dare say there is not a person in the State of 
Mississippi that would not tell you, if it were not for the 
volunteers and the nonprofit agencies that came and are still 
coming--and many of them made home in Mississippi--that we 
would not be as far along in the recovery process as we are and 
that they saved lives. Because they didn't wait 72 hours to 
come. They came. And they brought things that we didn't have, 
including tents and water and satellite phones and things 
that--truthfully, you knew more about what was going on in 
Mississippi than Mississippians, because we did not have that 
communication, not for a long time.
    And I asked colleagues here today. Mike Huseth, with a 
faith-based group that has come and established and done a new 
body of work in a way that they had never done before as a 
result of this. And I have asked Sherry-Lea Bloodworth, because 
I wanted to make sure that you understood the infrastructure 
that is now in place, an organized infrastructure, that allows 
the State and the communities to be able to respond to 
individuals.
    And I don't want that to be lost in this work. We can talk 
about the matrixes of numbers and estimates and those kinds of 
things, but it is because of this body of work, working with 
volunteers and nonprofits, that we actually come face to face 
with these folks every single day.
    And there are a number of issues that are in my testimony, 
and I will briefly highlight them. But I can only tell you, the 
power of these voices and the stories are huge. So before I 
end, I want to give you the South's warmest welcome of saying 
please come and let us introduce you face to face to people. 
And I know they will have long stories, but they are worth the 
visit. So we encourage that.
    In House Resolution 3247 that is yet to be passed, we are 
particularly interested in the part of the Stafford Act that 
will allow the opportunity for volunteers to be housed and fed. 
We were in Region 4 of FEMA. Region 6 in Louisiana actually 
housed and fed volunteers. But our JFO at the time, we were 
told in our State that the Stafford Act interpretation did not 
allow for that. However, my colleagues a river away were able 
to take care of volunteers that kept coming. Nevertheless, we 
can say that over 700,000 volunteers have come to Mississippi, 
and more than that because we could not document that.
    The interpretation of Stafford Act has to be the same 
across all jurisdictions. If one State can house and feed 
volunteers and have clean spaces for them, our State should 
have been in the same position to do so. But it didn't seem 
that we could move that mountain.
    Another issue, as you are looking at and have jurisdiction 
over the Stafford Act, I would highly recommend that you create 
a new ESF, emergency support function, in the Stafford Act that 
is separated out for volunteers and donations management.
    That body of work, again, across this country, that heart 
and those international donations that came that supported 
UMCOR, United Methodist Committee on Relief, that gave that 
individual assistance, it is a huge body of work that we must 
now honor in a way that allows for specific support and 
recognition in the seat of the emergency operation centers both 
nationally and on the State level. Without separating that out, 
bringing that function out from underneath ESF-6, you actually 
don't get the kind of support and work that needs to happen in 
any kind of disaster or response.
    Thirdly, I don't ever want to--there are heroes, always, in 
our work. And one of the heroes that I will always have, given 
the opportunity--we could not have run a statewide call center 
and done the kind of international donations response that we 
did in housing and warehousing things if it had not been for 
volunteers. But it is the national service family. And those 
are people--and I want this Committee to fully understand the 
value added that they bring across this country, but they are 
called AmeriCorps. These are the folks that choose, like a 
Peace Corps volunteer, to serve their country for a year.
    If it had not been and if it does not continue to be for 
the support of AmeriCorps members, National Civilian Community 
Corps members--they are deployed on the national level through 
National VOAD, through the Federal agency, the Corporation for 
Community Service. They are a deployable group of folks that 
come and create structures. There is not a person on the coast 
that doesn't see an AmeriCorps logo now. And if they wind up in 
any municipal meeting, they get a standing ovation, because 
people know that those are the people that are showing up every 
day and they are bringing the sweat equity required.
    When people can't qualify for FEMA for whatever reasons, 
when they can't figure out who owned this property because it 
is six generations back and the seven or eight children have 
had never had a property and they can't afford to get one now, 
they are the ones that are building back these homes.
    So national service is a huge part of this infrastructure. 
I don't want their funding to go diminished. And right this 
minute, the five campuses--one, I hope, is starting up in 
Mississippi in March of 2009--these five campuses, it was a $29 
million budget, is being cut to $13 million in the President's 
budget, and they are being told that they should privately 
raise $10 million.
    If you are deploying a resource on behalf of this country, 
please don't tell them that they also have to raise private 
money in order to get the job done. Because then, when you are 
calling them to respond to the Midwest floods, then you have no 
response, because the budgeting is uncertain.
    So there are major fixes in some things that--it was almost 
like we couldn't summarize quickly enough the work that needed 
to be done, but I am going to hit one more thing because I know 
my time is up and I am going upwards instead of down.
    We were actually asked as a State agency now to step into 
the gap of case management. This is a nice word, but what this 
actually means is, 3 years later, we have the opportunity, 
utilizing faith-based and nonprofit organizations, to be able 
to meet one on one with the families that are still left to be 
served.
    Now, the wonderful thing is that they are doing that, that 
FEMA is doing that, and we are proud of that. The unfortunate 
thing is that, in this opportunity to respond on behalf of the 
citizens of the country--and I know that the congressional 
people and the mayors would tell you that--we have not had a 
streamlined response, because there is not a coordination of 
FEMA nationally in the programs that are under the response 
work.
    So just like DHAP, this wonderful program that Congressman 
Thompson mentioned, the housing assistance program--and it will 
end March the 1st of 2009--we already know that we are not 
going to have enough housing on the coast in 9 months. If we 
could have it, we would have had that for our citizens.
    But we have this body of work that we are now being asked 
to oversee. And for any individual family that is left in a 
temporary housing unit, we are now given 9 months--and we 
haven't got the contract finalized; we are hoping in the next 
week to get that finalized--but we are given about, start up, 
then--you know, you have to get people hired up and geared up 
to do this work--we are given about 9 months to try to help 
about maybe 10,000 families. Now, multiply that times 3.17. 
That is about 30,000 people that you are trying to move into a 
whole new place.
    We shouldn't even go into this to try to find people to do 
this kind of level 3 years later. The complications of these 
families are so--they are so critical, the crisis is terrible, 
that if you had to actually case manage one of these families 
to find them to a new, safe, affordable housing situation, 
understand the mental health issues, understand the job 
employment issues, understanding every part of this individual, 
whether it is a single mom or an elder or whether it is someone 
with a disability, how do you move them into this next place is 
actually mission impossible. And we seem to be stepping in 
anyway.
    We have to extend March 1, 2009, and we need to know that 
now. And this body of work cannot be accomplished in 9 months, 
but we will give it heroic efforts, as we have done over the 
past 3 years.
    And I know I need to step. I appreciate the opportunity.
    Ms. Norton. Well, I can understand your passion, Ms. Kelly.
    Who wants to go next?
    Mr. Huseth?
    Mr. Huseth. Yes, good morning, Madam Chairman Norton, 
Members of the Committee. I would like to enter my submitted 
written statement into the record.
    My name is Michael Huseth, and I am the executive director 
for Lutheran Episcopal Services in Mississippi. And I would 
like to thank the Subcommittee for inviting me to respond to 
the request to present testimony of our organization's recovery 
role in Mississippi following Hurricanes Katrina and Rita.
    Established in 1991 and reconstituted in January of 2005, 
Lutheran Episcopal Services in Mississippi grew out of a unique 
partnership between the Episcopal Diocese of Mississippi, the 
Southeastern Synod of the Evangelical Lutheran Church of 
America, and the congregations of the Southern District of the 
Lutheran Church Missouri Synod.
    Since its inception, LESM continues to be on the cutting 
edge of unifying faith-based service ministry organizations, 
volunteer organizations, and other community-based nonprofit 
organizations to pool resources and assemble consortiums that 
sustain long-term recovery projects in Mississippi in the wake 
of the hurricanes.
    Since August of 2005, LESM has continued to be wholly 
involved in the relief and recovery efforts on the Mississippi 
Gulf Coast. Among the first disaster response teams deployed, 
LESM established within days relief camps on the Gulf Coast and 
an evacuee resettlement effort in Jackson, Mississippi.
    Today, LESM manages three case management and construction 
operations on the Gulf Coast, as well as one serving central 
Mississippi. Offices in the volunteer housing operations cover 
all the Mississippi Gulf Coast and southern/central Mississippi 
through locations in Ocean Springs, Long Beach, Bay St. Louis 
and Jackson.
    With local, national and international support and more 
than $10 million in cash, LESM has assisted thousands of 
survivors with both emergency and self-sufficiently needs. The 
driving force behind our work has been and remains the 
dedicated efforts of more than 50,000 volunteers who 
collectively have donated more than 2.9 million hours of 
service, valued at over $58 million.
    For the first several months after Hurricane Katrina, the 
work focused primarily on emergency relief efforts, which 
included distributing food and clothing and other necessary 
supplies. The work's focus gradually grew to address the 
critical need of housing, specifically returning clients to 
safe and affordable housing. Primarily with volunteer labor, we 
have gutted, repaired, rebuilt and built more than 5,000 homes 
over the past 3 years.
    Additionally, we have acquired, renovated and built 
facilities to house, feed and support volunteers. This includes 
a government-owned building in Ocean Springs, Mississippi, 
which has been developed with the cooperation of the Board of 
Supervisors of Jackson County and the city of Ocean Springs 
into a relief camp site named Camp Victor. This 37,000-square-
foot site is used for volunteer housing, food distribution, 
case management, construction management and warehouse space. 
Our three affiliated camp sites are able to accommodate and 
manage a total of 470 volunteers on a daily basis.
    Last year, in 2007, LESM leveraged $1.4 million in the cost 
of volunteer housing and construction management to produce 
more than $10.7 million in direct services to the residents of 
lower Mississippi counties. These results are quite typical of 
LESM's operating protocol, as it is with other community and 
faith-based organizations operating in the Gulf Coast region. 
One can easily understand why recent polling showed that the 
Gulf Coast residents overwhelmingly trust faith-based 
organizations to continue the long-term recovery projects that 
will ultimately result in their being made whole once again.
    From the beginning, a pivotal aspect of LESM's disaster 
recovery effort has been its case management program, wherein 
clients receive a continuum of services, including but not 
limited to assistance with utility bills, rents, mortgages, 
health care, child care, transportation, employment and 
housing.
    This continuum-of-services approach is designed to be 
holistic, comprehensive and results-oriented. The primary goal 
is to move clients from survival and dependency to self-
sufficiency and independence. The program works to support 
client recovery efforts, address their short- and long-term 
needs, and effectuate positive and sustainable changes.
    Over the last 3 years and through its Katrina Aid Today 
affiliation, LESM has served more than 2,000 clients, many of 
these poor, elderly and handicapped.
    While LESM presently continues its case management 
operation statewide, it is increasingly difficult for us and 
all of our partners to sustain the programs necessary to 
provide sustainable long-term housing solutions for those still 
remaining in temporary and unsafe situations.
    The primary reason for this ongoing challenge is the low 
inventory of affordable housing due to the destruction caused 
by the storms. While case management is a necessary function to 
assist in bringing residents to the resources they need, case 
management alone cannot build and repair housing units.
    Funding for direct services that will complete the housing 
circle has dried up. Case management operations continue to be 
funded but are largely ineffective in resolving this issue 
without housing resources. There are two critical components 
that are needed to complete this process.
    The first is funding for the long-term recovery committees 
so that they may continue the process of providing building 
resources to the residents once the case manager has 
coordinated all the pieces of the puzzle.
    The second is a continued source of funds for the long-term 
recovery committees to allocate to organizations to rebuild the 
coast. The American Red Cross has run out of funds for the Gulf 
Coast, and the Salvation Army is nearly depleted. Garnering 
private grants and donations continues but becomes increasingly 
difficult as time passes and the process becomes more costly. 
Continued long-term recovery for the Gulf Coast residents 
through the case management model can only achieve a level of 
success equal to the level of funding provided to the case 
management as well as the long-term recovery committees.
    Lutheran Episcopal Services in Mississippi has been 
designated as a statewide disaster preparedness and response 
coordinator by the National Voluntary Organizations Active in 
Disaster. It is a member of the Lutheran Disaster Response 
based in Chicago and the Episcopal Relief and Development out 
of New York City, and has recently been honored with an Award 
of Excellence from Lutheran Services in America, which 
represents over 300 service ministry organizations with outlays 
of over $9 billion on an annual basis.
    LESM has developed a statewide comprehensive education and 
awareness program for disaster preparedness, response and long-
term recovery. With the support of its affiliated 
denominations, board of directors, volunteers, contributors, 
partners and dedicated staff members, LESM has become a 
recognized leader in the Mississippi Gulf Coast disaster 
recovery efforts. With these entities, it is our goal to 
eventually make Mississippi whole.
    We humbly request your continued support and prayers. And 
thank you, and may God bless you.
    Ms. Norton. Thank you, Mr. Huseth.
    We go finally to Ms. Bloodworth.
    Ms. Bloodworth. Good morning. Thank you, Madam Chairwoman 
Norton and Committee Members. I would also like to enter my 
submitted testimony into the record, please.
    Ms. Norton. So ordered.
    Ms. Bloodworth. Thank you.
    My name is Sherry-Lea Bloodworth. I am director of the 
Hancock County Housing Resource Center, which is a member of 
the newly formed Gulf Coast Association of Housing Resource 
Centers. We have tried to simplify everything by coming 
together as one entity.
    I am also executive director of Hancock County Long-Term 
Recovery. For those of you that don't know--and I am sure you 
do by now--Hancock County was ground zero.
    I would first like to thank you for holding these hearings 
and inviting me to share my almost 3 years of experience with 
you. I would like to thank you for your ongoing support, much 
of which I am learning about actually today.
    As you have read in my testimony, although the people of 
Mississippi are survivors, we are far from recovered, and we 
need your support and awareness right now as much as ever.
    I come before you to share my unique experience following 
the hurricane, which I hope will provide you with a little 
insight on what is working and what keeps us from moving 
forward in Mississippi.
    In the early hours and weeks following Hurricane Katrina, I 
personally organized the evacuation and relocation of 
approximately 900 Mississippi residents. By October of 2005, I 
was serving on ESF-14, Transitional Housing Committee in 
Jackson. By November 2005, I was involved in the implementation 
of housing recovery programs, working to address countless and 
inevitable rebuilding issues and complicated construction 
standards. That program was actually funded by Oprah's Angel 
Network.
    I prefer not to talk about statistics right now, which may 
or may not be accurate and, in my experience, many times are 
inaccurate, but instead offer a glimpse of what it is like for 
those of us leading the recovery effort day-in and day-out.
    We often wonder in Mississippi what you are thinking here 
so long after Katrina has faded from the headlines. Each day we 
live with the impossible responsibility of finding affordable 
permanent housing for the thousands of families still without 
homes. Yet I consider myself fortunate to live and work in the 
hardest-hit area on the Gulf Coast, Bay St. Louis, Mississippi.
    Through my work in this life that has chosen me, the need 
never fades. Every day I must console people as they describe 
their challenges. I am forced to explain to them that I am 
doing everything I can do but that HUD hasn't released the 
funding for the program that will allow us to build their home. 
I must explain to them that I can't stop FEMA from moving them 
out of their trailer. I must tell them that the rentals have 
not been restored due to a delay in tax credits, and that the 
environmental studies and guidelines have yet to be completed 
because we can't find funding to pay for the very environmental 
assessments necessary to access that funding.
    I must tell them that we are waiting for more case-
management dollars through FEMA's Phase II Case Management Fund 
so someone will be assigned to help them soon. I don't even try 
to explain to them the problems of insurance affordability, 
safe, sustainable design and engineering, or how we are trying 
to start a fund to assist thousands who are still, after the 
disaster, no longer credit-worthy. How can I ask them to be 
patient when I am losing my own patience?
    I choke back tears when the elderly couple in front of me 
have just finished telling me that they are living in their 
shed after losing their FEMA trailer because they want to stay 
on their property, one of the few things they still own.
    Every day residents look back at me with despair, confusion 
and sometimes anger, but also with the smallest amount of hope 
that maybe they are finally in front of someone that can do 
something to help them. Yet, in so many ways, our hands have 
been tied.
    And so I am here today doing what I can on behalf of the 
people of Mississippi, the Housing Resource Centers, the 
nonprofits, church organizations, and the residents still 
fighting to hang on. I am here to implore you to help us do our 
jobs better on the ground.
    We are not the policymakers, but we are the ones who live 
by the policies you make. Our jobs are grueling. We live in 
struggling and broken communities, and search every each and 
every day to find some way to push forward with the remarkable 
optimism that Mississippians have.
    Yet we live with the fear that you are so far away from us 
that we may have fallen from your radar screen, although I am 
seeing that is not a reality today. We hope that you haven't 
forgotten us and that Katrina fatigue that we all feel does not 
erase your memory of what happened on August 29, 2005.
    We know that, in many ways, you are our only hope. You are 
the policymakers, our advocates and representatives to whom we 
have given our voice. I ask you to read my testimony, ask me 
questions. Many issues seem simple, but we do realize they 
aren't. They require communication and coordination that seems 
to us to be occurring often without consideration of what is 
actually occurring on the ground.
    We respect everything you have to do to move and change 
policy. And we appreciate your holding these hearings to learn 
from Hurricane Katrina and to do this better the next time it 
happens, as it is in the Midwest at this very moment.
    The answer to all of this is simple: Prepare and support 
community organizations prior to disaster; locate and 
communicate with them immediately after a disaster; and find a 
way to mandate that Federal agency support and coordinate with 
them as soon as possible following the disaster; encourage 
State government to do the same. Most importantly, listen to 
them when they say something is not working, and support the 
policy changes that will make the hurdles we have experienced 
easier to navigate following the next disaster.
    We, the Housing Resource Centers and Long-Term Recovery 
Centers that were borne out of recommendations from the Federal 
agencies, have funded ourselves, navigated the complexities of 
HUD and FEMA ourselves, and have figured out a way to rebuild 
thousands of homes better and safer than before with no 
Government support. And now we are the agencies that will guide 
every remaining resident through the next steps, still with no 
funding.
    Long-Term Recovery and Housing Resource Centers need 
technical assistance and funding as soon as possible after a 
disaster.
    Finally, I ask that if you have not been down to the coast 
recently, please make a special trip. I am originally from New 
Orleans. I love New Orleans. But I am disappointed by the 
unbalanced attention that New Orleans has received. Come see us 
in Bay St. Louis and Waveland, where we lost 90 percent our 
housing stock, where my children are in school in trailers. 
Come see us there and live our frustration for just a moment, 
and you will come back here re-energized to give us the final 
push that we need.
    Thank you very much.
    Ms. Norton. Well, this has been very enlightening, if not 
heartbreaking, testimony.
    And, Ms. Bloodworth, I assure you, you are still on our 
radar screen. I mentioned in my opening statement that, 
clearly, when you wipe out an entire big city, that is going to 
get the attention of the world, but that doesn't mean that that 
is where this Subcommittee is focusing, or this Full Committee, 
and we have been focusing on the entire Gulf region.
    And I also want you to know that, in terms of funding, 
Mississippi has not been short-changed in terms of funding. If 
anything, there have been complaints from Louisiana about the 
amounts and the way they were distributed between Louisiana. 
And that is why hearing your testimony makes me have a number 
of questions.
    Let me begin with Mayor Longo.
    You testified and, indeed, your Member of Congress talked 
about city hall not being built. Your testimony is that no 
public building has been rebuilt, not the city hall, not a 
single public school, not the housing authority. This would be 
public infrastructure--
    Mr. Longo. That is correct. Yes, ma'am.
    Ms. Norton. --where there would be first and foremost 
Federal funds. Could you explain what the holdup is in getting 
the public buildings that the residents look to for support at 
least in a state of construction?
    Mr. Longo. Yes, ma'am. My goal was and I have one lead 
engineer that all he does is push the architects and engineers 
that have these projects, and my goal was and, actually, sorry 
to say, threaten some of them with their jobs if they did not 
break ground by anniversary this year. And that won't happen 
because it is a conglomeration of funding that is rebuilding 
them. There are FEMA funds. There are CDBG funds. There are 
hazard mitigation funds. There are the mitigation funds that 
will be on each one of these buildings. And we have not 
received all those funds yet. The process hasn't even been 
completed on some of those things yet. And so it just----
    Ms. Norton. So, yeah, it is very difficult to do housing or 
infrastructure of any kind because typically the funds come 
from a number of courses. But 3 years afterwards, I want to 
know whether the major problem is with the Federal side of the 
funds or with the local side of the funds, like CDBG, and there 
is local and Federal and so forth. We here are particularly 
concerned if FEMA funds have not been on the line, if the 
Federal match for CDBG have not been on the line, where is the 
holdup to be found?
    Mr. Longo. Initially, and of course in Waveland, we are 
having to rebuild 100 percent of our utilities, our 
infrastructure.
    Ms. Norton. Has that been started?
    Mr. Longo. That has been started. And thankfully, quite 
frankly, is because at that time when we started, because in 
order to even have a FEMA trailer, you had to have water and 
sewer. So we had to piecemeal this together, and we raised, we 
went out and raised funds. The Bush-Clinton funds stepped up to 
the plate and helped us with our match. Later on, that was 
waived. But this was something that had to begin immediately 
for us to even sustain ourselves or even stay around. So, but 
that project is--we have completed 100 percent of the----
    Ms. Norton. Have all the Federal funds? I mean, where? If 
you were, say, here, and obviously we need some kind of 
facilitator down there since you have got to get together 
different kinds of funds. That is a whole language in itself, 
much less a process.
    Mr. Longo. It is monumental. Yes, ma'am.
    Ms. Norton. I am trying to find out if there has been a 
holdup of Federal funds, or if there are other funds that need 
to be in place as well.
    Mr. Longo. It is a mix. It is on both sides. The mitigation 
process can't even take place until the plans and specs are 
done, and that is overlaid on what has to be done and what 
needs to be raised or hardened in a building. So you have to 
get to that stage. CDBG, I can't officially hire the engineers 
and architects to do the work. Now, thankfully, they have 
been--all but one has been good enough to work knowing that, 
down the road, he will eventually get paid, so they have worked 
without a contract. But I can't officially enter into a 
contract with them unless I am willing to eat that. And being a 
city that went a year without any income, I can't afford to do 
that.
    So the CDBG moneys, we have not received a nickel of our 
CDBG grants yet. And we have moneys in CDBG that are rebuilding 
each of those buildings. And then the FEMA funds, they are 
there, but they will kick in what the other ones don't pick up.
    Ms. Norton. Is HUD working with-- is HUD working with FEMA 
where necessary?
    Mr. Longo. Yes, ma'am. In the State.
    Ms. Norton. Talk about facilitator. It takes a very skilled 
person to know how to, especially to advise a small town that 
has no reason to go through this kind of very complicated 
process.
    Ms. Kelly, you wanted to respond to that?
    Ms. Kelly. Well, I would like to say that the 
recommendation from our congressional delegation about the FEMA 
coaches or someone who would come in and cross all of the 
Federal bureaucracies is a fabulous idea. Pretty concrete 
coaching would be helpful, and somebody who will stay so that 
we are not dealing with someone who comes for 3 months and 
someone else comes in. So I think that is a brilliant idea.
    I would say to you, though, as we are entering into this 
case management world that is coming out of HUD, and its tied 
to the March 2009 deadline with HUD, which is that DHAP, the 
Housing Assistance Program, we actually have had an invisible 
infrastructure from HUD doing that work over the past 3 years. 
We couldn't actually--and I am on the State level. We couldn't 
actually pinpoint who was running that program. It took me 
really truthfully months to figure out now that it is out of 
one person's office here in D.C. That that DHAP program is 
being run. And that gentleman that is running that program has 
four other Federal programs that he is running, and he doesn't 
have a State level coordination out of HUD. And now I 
understand why I can't find them, because he is subgranting 
that grant to 34 different entities, and they are then 
subgranting as well. And I couldn't find the required--we are 
being required in case management to align our body of work, 
and I couldn't find the people who are doing the work.
    So HUD actually does need immediately to put a State-level 
housing assistance coordinator in place in Mississippi, 
because, again, just one more outcome of this is that 
individuals who are now leaving these FEMA trailers and are 
going and using these vouchers are given their own list of 
names to call and try to find and see if these landlords will 
actually take these vouchers. And then when they actually call 
back and say, okay, I found somebody myself, when they get 
there--I had a young lady who told me last week that she is 
actually having to leave that, because I guess the Federal 
Treasury checks are so slow to pay the landlord that they are 
kicking them out because they can't afford to keep people there 
when they don't get the rent.
    Ms. Norton. One other thing, we have to be out of this room 
by 1:30, and we want to make sure we get to hear from FEMA.
    One concrete point that has come through here, that unless 
we have some facilitator, coach, call it what you want, I don't 
see how anything is going to get built. This is a process that 
is so complicated that even in a big city like this, it takes 
very experienced people to wade through it.
    Ms. Bloodworth, from your testimony there are some things I 
would like to get on the record. You indicated that people were 
giving up the FEMA trailers after being approved for the so-
called cottages but then are finding that the cottages are no 
longer available. What do these people do then? And how could 
that happen? Don't they coordinate with HUD so that there is 
something in writing on the ground before they?
    Ms. Bloodworth. That was the question I had for you all, 
was--and I felt like, you know, down there, there are four 
programs right now that are running, and it seems like no one 
is out with their calendars to figure out that the transitional 
housing programs might should not end until permanent housing 
programs are----
    Ms. Norton. This is something that the members have clearly 
left us with. And I can't believe, given the testimony, yours 
and theirs, that they could--that it could be cut off with no 
rental housing available in the State and no infrastructure 
being built.
    Ms. Bloodworth. We are being charged for that at the 
Housing Resource Centers for building in-fill housing through a 
workforce housing grant coming from HUD. Our work plan was 
turned in, in February. And we can address a lot of the need in 
in-fill housing specifically. But when these other transitional 
housing programs are ending too soon, and our HUD funding is 
not in place----
    Ms. Norton. What do you mean when you said in your 
testimony that you have rebuilt thousands of homes without 
government support?
    Ms. Bloodworth. That is correct. We build through grants. 
We build using grants. We have grant funds through Mississippi 
Hurricane Recovery Fund, American Red Cross, the Salvation 
Army, and LSSDR and some other groups. We couple that with an 
individual's resources that they have in hand, whether it be a 
little bit from insurance and some from MDA if they got any, 
and then we build their homes using volunteer labor, and we 
organize that all through the Housing Resource Centers with our 
partners like LESM.
    Ms. Norton. And where do you get the contractors? In other 
words, they just give you the money. Who do they give the money 
to?
    Ms. Bloodworth. The money goes to the venders. We structure 
everyone's recovery plan personally, and it goes through the 
vendors. And we work all this through our in-house design 
studios, too, to make sure we are building back safer.
    Ms. Norton. Mr. Huseth.
    Mr. Huseth. In our camps, we have construction coordinators 
that basically work with volunteers, that they come down and 
they work on each one of these things ourselves. We build 
houses for $55 a square foot, and we do this with volunteers 
that come from all over the country and from other countries as 
well.
    Ms. Bloodworth. And LESM is one of our partners.
    Mr. Huseth. And these are funds, as she said, from American 
Red Cross and funds from our church affiliates.
    Ms. Norton. These are people who perhaps had a home?
    Ms. Bloodworth. These were homeowners. Some of the funding 
is for renters as well, and we are able to build some renters' 
homes as well if they have property.
    Ms. Norton. The homes, owned by somebody that they are 
willing to rent out? They have got to be owned by somebody if 
they are renting it.
    Ms. Bloodworth. No, no, these are--the majority of the 
people we build for were homeowners prior to Hurricane Katrina 
who lost their homes, and they have property.
    Ms. Norton. What is the source of funding for your various 
programs?
    Ms. Bloodworth. We raise our own funds.
    Ms. Kelly. It is all donated, and you know what----
    Ms. Norton. Wait. I haven't had an answer to that question.
    Ms. Bloodworth. We raise our own funds. We raise funds 
through Oprah's Angels Network, various national foundations.
    Ms. Norton. Do any of you have Federal funds?
    Ms. Bloodworth. No, ma'am. Even though it was a federally 
recommended structure, the Housing Resource Center, we were 
told by FEMA that this is what we needed to do. And we have 
done it from day one.
    Ms. Norton. But they said, if you did certain things, that 
you could get funds?
    Ms. Bloodworth. They recommended that we do it to recover, 
and we were doing what it took to recover.
    Mr. Longo. Now, if there were moneys that were received 
from MDA through the Katrina relief, that was Federal moneys 
that went through MDA. But the majority of moneys are the same 
in Waveland. The majority of the homes were rebuilt by 
volunteer groups, the church-based groups. I can't say enough 
about the AmeriCorps and what they have done. At the same time 
that we had AmeriCorps, the largest gathering of the AmeriCorps 
working in the City of Waveland, they also had teams working 
the range fires in Texas and in California. Amazing. And the 
amount of money that they actually saved the Federal Government 
by doing it through AmeriCorps and Vista.
    Ms. Norton. Next to housing, what is the most sought-after 
case management service that is provided or needed?
    Ms. Kelly. I want to add one thing that I thought was just 
so strong, and I don't want the point to be missed, when the 
mayor said, I couldn't get the Federal dollars so I went to a 
foundation to get the money to back me. It is the Clinton-Bush 
fund. Every one of these groups are being funded through 
foundations, nongovernmental organizations around the country 
that are supporting this work being done. And I would say, it's 
a powerhouse. It is an under-the-surface powerhouse that is 
getting people back in their homes.
    Mental health----
    Ms. Norton. So these are privately funded case workers 
even.
    Ms. Kelly. That is right.
    Ms. Norton. Are there any case workers from the Federal 
Government or the State government?
    Ms. Kelly. Yes. Right after the hurricane, there were 
international donations that came to the Federal Government, 
and they didn't know what to do with those, and they used those 
funds, and they put them into United Methodist Committee on 
Relief. And across the country where you had the evacuees, they 
used those funds to do case management.
    When that funding was coming to an end at the end of 
February, the FEMA went to a little pot of money called Cora 
Brown Funds, because again it was donated. A woman who had an 
inheritance left her money to FEMA. That is unusual. And those 
were the funds that we used to actually bridge this body of 
work for 60 days. So we had some entities in Mississippi that 
were getting international donations, but it was coming through 
FEMA, which I guess you could say is Federal money.
    Mr. Taylor. Madam Chairman.
    Ms. Norton. Yes, indeed.
    I am going to give it over to you entirely after this one 
question. Because Ms. Bloodworth indicated you even had or are 
having problems with communicating, with communications with 
citizens, Mississippi citizens. What is--what have you found to 
be the most effective way to communicate? What do you mean 
"problems even with communicating--communications with the 
people who need the help"?
    Ms. Bloodworth. There has not been a proper outreach in the 
State of Mississippi to the residents.
    Ms. Norton. Meaning what? What kind of outreach are you 
suggesting?
    Ms. Bloodworth. Meaning outreach within the communities, 
door-to-door canvassing that is funded somehow, billboards, 
getting to where they are. Not in the newspaper, where a lot of 
people may or may not read the newspaper. But going door to 
door, going to where they are, finding them and telling them 
what programs. We just held an outreach in March with very 
little--we don't have a budget for advertising, very little 
advertising in Hancock County. We got 500 residents that didn't 
know that they could apply for assistance, 500 new residents. 
Just from going, we sent volunteers door to door to tell them, 
please come. Even if you don't think you qualify, please come. 
They thought, well, I have got a little insurance money; I 
don't think I qualify for anything else. So they gave up. And 
it has been a long time. They are tired.
    Mr. Longo. That has been one of the more difficult things 
since the hurricane, is getting the word out throughout the 
community. And remember that for a long time, people didn't 
have vehicles to get around. They didn't have TVs, computers. 
That infrastructure wasn't there.
    Ms. Norton. You are talking a few thousand residents. And 
with the--16,000. You would think that FEMA could have gotten 
together with the groups on the ground and figured out a way.
    Mr. Longo. What is 16,000?
    Ms. Norton. What is the population we are talking about?
    Mr. Longo. It was 45,000.
    Ms. Bloodworth. 45,000.
    Ms. Norton. Sorry. In our terms, a small population. But 
they are all scattered, and they don't have computers, and they 
don't have cell phones. But I must say, what is it, Ms. 
Bloodworth, you talked about door to door? It does seem to me 
it could be done if FEMA was willing to put together some list 
that said, A, B, C, and this is where you go to find out if you 
qualify.
    Mr. Longo. One of the problems--and of course, they did 
have resource centers set up. And, again, we would find people 
all the time that for whatever reason didn't know about it or 
couldn't get there or what have you. But one of the things that 
was extremely frustrating was that programs that were well 
needed and were really doing well were stopped way before it 
was time for them to stop. And there was a project that was 
funded to help the mental health, support the mental health 
system, and they were going door to door, and they were 
knocking on the FEMA trailers, making sure people were okay, 
sending them to the proper resources, 9 out of 10 people 
suffering from some level of posttraumatic stress. That funding 
and that help and support was ended way long ago. And now, at a 
time when it is really needed at the most, and the mental 
health system, local mental health system is just extremely 
overwhelmed.
    But when Federal operations ceased and desisted in August, 
the second anniversary, the totality of the devastation and 
what happened in Hancock County and in Waveland, Bay St. Louis 
at ground zero, there were only so many trucks and so many 
bulldozers you could fit in a city, and everybody worked to the 
best of their abilities. But on August 29, 2007, when Federal 
operations ceased with the debris removal, we still had piles 
of debris lining streets in Waveland, Bay St. Louis. We still 
had 4,400 dead trees that were in threat of falling on the 
rights of way or infrastructure still standing ready to be cut. 
We still had 500 demolitions that had been approved to be 
knocked down. It was just the totality of the devastation, what 
needed to be done, and were working as hard as they could every 
day. That is just what we were left to find a way to do. And we 
have been working with FEMA to find a solution to that ever 
since. But things were just ended on a regional scale when 
special needs needed to be taken at ground zero.
    Ms. Norton. Mr. Taylor.
    Mr. Taylor. Madam Chairman, just as a point of 
clarification.
    Our Nation was generous I think in an unprecedented manner 
to the State of Mississippi. We did have the good fortune to 
have the Chairman of the Senate Appropriations Committee, 
Senator Cochran, going to bat for us. And for the first time, 
to my knowledge, the Nation actually compensated homeowners who 
had homeowners' insurance, who didn't get paid because the 
insurance company found a way to weasel out of the contract. In 
effect, our Nation paid that claim up to $150,000. And a lot of 
the moneys that these groups turned around and used, the 
individual took that money to buy the materials; these groups 
were kind enough to contribute the labor, which is incredible 
when you consider building costs have escalated so much. So I 
certainly don't want to in any way minimize the generosity of 
our Nation, the generosity of my fellow Members of Congress for 
voting for this. And it is not really their job to remember all 
this, but we always want to say thank you when someone is good 
to us, and the Nation was good to us.
    But it also leads to the other point of we have got to fix 
the insurance problem, because not every State can count on 
having the Chairman of the Appropriations when something like 
this happens. And so we need to. It adds credence. The Nation 
ended up paying bills that the insurance companies should have 
paid in the first place, and if we write the law properly, they 
will pay it next time.
    Ms. Norton. Thank you very much.
    In order to make sure that FEMA doesn't escape without our 
hearing their testimony--I hate to use that word for my good 
friends with FEMA. We work closely together, and I do want to 
say they have been under pressure that we all also have to 
understand. There has never been anything like this. And for 
all the criticism of FEMA, only our continuing oversight can 
assure that FEMA and the rest of us, for that matter, do what 
is necessary.
    There are a number of other questions we would like to ask 
you, and if you would not mind, we would like to be able to 
submit those questions to you when you are home and have your 
respond so that we can make sure we are being as responsive as 
we can.
    Mr. Longo. Positively.
    Madam Chairman, I would like to finally say that our 
communities thank you and your fellow Congressmen and Senators 
for the generosity and the hard work. Many, many of you came 
down, not once but twice and more. Getting your feet on the 
ground there was the way to find out what was going on, and you 
did that. And there were many, many firsts that this Nation did 
in reaching out to us, and many, many firsts that FEMA had to 
figure out a way to make it work. And it has been a difficult 
process. But I appreciate everything that you all have done for 
our communities.
    Ms. Norton. Thank you very much.
    And particularly thanks to all of you for making such a 
long trip. I know how long that trip is.
    Thank you for very, very important testimony.
    I must tell you, I saw it, and what I saw was nothing. And 
I saw how everybodywas pitching in. That encouraged many of us 
who returned to Washington to begin to work on this issue, and 
we haven't stopped now, and we are not going to stop until it 
is all recovered. Thank you for coming.
    And we want to call the next witnesses.

   TESTIMONY OF MICHAEL WOMACK, DIRECTOR, MISSISSIPPI STATE 
   EMERGENCY MANAGEMENT AGENCY; AND SIDNEY MELTON, DIRECTOR, 
  MISSISSIPPI TRANSITIONAL RECOVERY OFFICE, FEDERAL EMERGENCY 
       MANAGEMENT AGENCY, DEPARTMENT OF HOMELAND SECURITY

    Ms. Norton. And the next witnesses are: Mr. Michael Womack, 
director of Mississippi State Emergency Management--or FEMA, 
Mississippi State director of FEMA; Sidney Melton, the 
Mississippi Transitional Recovery Office director.
    Gentlemen, be seated.
    Please start your testimony. I will be right back.
    Mr. Womack. Thank you, Madam Chairwoman.
    I am going to deviate from my written testimony just for a 
minute to say that----
    Ms. Norton. Excuse me, I am told that, wait a minute, Mr. 
Womack is the State Emergency Management. I am sorry. Mr. 
Melton is the FEMA person, the Mississippi Transitional 
Recovery Office.
    Mr. Womack. The testimony that was given in the preceding 
hours was right on target. I just feel like it makes it sound 
like there has been no progress on the Mississippi Gulf Coast, 
and that is absolutely not the case.
    Tens of thousands of families have rebuilt their homes 
based on the CDBG grant funding, and we have made a huge step 
in moving people out of travel trailers into the first program 
that I would like to talk about, and that is the Mississippi 
Alternative Housing Program.
    This program was developed as part of a $281 million FEMA 
grant that is administered by my agency. The Housing Program 
develops and produces safer and more comfortable housing units. 
We have one, two, and three bedroom units. All cottages meet 
HUD standards for manufactured housing, and with removal of the 
wheels, carriage, and metal frame on the base of the unit, the 
cottage can be attached to a traditional foundation and then 
structurally is indistinguishable from a site-built home. Both 
the modular and HUD installations are designed to meet a 150-
mile-an-hour wind rating, and there are more that 2,600 
cottages occupied in Mississippi. These residents have been 
extremely pleased with the cottages.
    I would like to take just a minute to say that I feel that 
FEMA's travel trailer program was extremely successful in 
Mississippi. Within 2 months of the disaster, more than 35,000 
residents were moved out of the shelters and tents into FEMA 
trailers and mobile homes. The trailers were the best option at 
the time and provided many Mississippians with transitional and 
temporary housing during a critical time of need.
    I would like to say that one of our biggest challenges to 
the Alternative Housing program or the Mississippi Cottage 
program has been problems dealing with citizens and 
jurisdictions who are concerned that these cottages would have 
a negative impact on the overall cost of community, the 
property values, and were concerned that we were placing a lot 
of low-income housing units into their communities in places 
they did not want.
    We worked with these individual jurisdictions, Mayor 
Longo's being one of them, and we were able to convince them on 
a temporary basis that these were much safer and much more 
liveable housing units. By doing so, we were able to place 
these almost 26,000 units in these communities all along the 
Mississippi Gulf Coast and a few communities off the coast, but 
they all right now were set as temporary units.
    Just recently, all three counties have agreed to allow the 
cottages to remain permanently in unincorporated areas that are 
zoned for mobile homes, which is a great step forward. But we 
would like to see every one of the communities, every one of 
the municipalities allow the cottages to be placed permanently 
in certain neighborhoods based on their zoning. So that is a 
big challenge for us.
    The second thing I would like to talk about in addition to 
the housing program is briefly touch on the Public Assistance 
Program. Over $2.5 billion has been obligated under FEMA public 
assistance to rebuild infrastructure and public buildings. Over 
91 percent of the money provided for debris removal has been 
paid to local governments. Over 90 percent of the emergency 
protective measures, police and fire overtime, has been paid 
out. But only about 30 percent of the permanent work has been 
paid out. And Mayor Longo discussed some of the challenges 
there dealing with the need to merge many different programs.
    Public assistance will pay to rebuild the structure exactly 
the way it was before the storm, but if you want to improve it 
using other funds or even private funds, other government funds 
or even private funds, then you have to go through this 
complicated process of trying to identify exactly what FEMA can 
pay for to put it back to the way it was, and then potentially 
using mitigation money to strengthen it, and then use CDBG or 
other funds to increase the size or increase the function of 
it. So as we have already talked about, the complexity of 
merging all these programs is one of the great difficulties.
    We have already talked about the fact that FEMA has had to 
swap--bring in and other staff has left over the past 3 years. 
Some of that is quite natural, because a lot of the original 
staff that came in were reservists, these were retirees in many 
parts--from the Federal Government or other disciplines, and 
they did not want to stay for 3 years, so they had to bring in 
permanent staff. And I am sure that Mr. Melton will talk a 
little bit about that in his presentation. But because we have 
had this change in staff, it has slowed the recovery process. 
But it is not really all FEMA's fault that we can't have 
someone come in, say something, and that stand throughout the 
disaster. The oversight provided by both the Office of 
Inspector General and by the Office of General Counsel requires 
FEMA to adhere to program standards, and that means that, as 
you get further into a process, there may be changes that have 
to be made to the project.
    I think if we could change anything, that would be the one 
thing that we could change; that if the first FEMA person comes 
on the ground, tells a local official something, then FEMA 
stands by it, and it is never again questioned by FEMA, the 
Office of Inspector General, General Counsel, Office of 
Management and Budget. It would speed the recovery process more 
than anything else we could do.
    I would like to say that one thing that you need to be 
aware of is the recent change in what is called the management 
costs policy for FEMA. Management costs is the funds that I use 
to help administer the program, so I can provide the assistance 
to local governments, like Mayor Longo's. Recently, a policy 
change that would state that, for public assistance, only 3.34 
percent of the total cost for public assistance could be used 
for management costs. If that was the case, in my State, we 
would not have been able to administer the program as 
effectively as we had, disburse the funds that we have; and I 
feel comfortable that the financial safeguards that we put in 
place in Mississippi are possibly the best that any Statehas 
ever been able to put in place. But we could not do that 
without the management costs being restored to what they were 
pre-Katrina. Thank you.
    Ms. Norton. Thank you, Mr. Womack.
    Mr. Melton.
    Mr. Melton. Good morning, ma'am, Chairwoman Norton and 
other Members of the Subcommittee.
    My name is Sid Melton, and I am the director of FEMA's 
Mississippi Transitional Recovery Office. It is my pleasure to 
be here today to update you on FEMA's recovery efforts in 
Mississippi.
    I joined FEMA in February of 2004 in Florida. That was 
following my retirement from the U.S. Army in 2002, after 20 
years. I began my work in Mississippi early in September 2005, 
and I have currently been serving in my current position since 
July of 2007. And our main role as the Transitional Recovery 
Office is to implement policies and promote recovery for the 
State.
    Much has been said about the methods and the way in which 
FEMA has performed this mission following Hurricane Katrina. 
While we readily acknowledge that we could have done things 
better, again, as Mike stated, we can't lose sight of what we 
have accomplished. We will continue to face those challenges, 
but we will focus on the mission, and our mission is to assist 
the communities, disaster victims, and to continue the recovery 
mission for Mississippi.
    Our focus in Mississippi is in three program areas: 
individual assistance, public assistance, and mitigation. Each 
area represents primary sections within the TRO, and we see 
successes, and we still see challenges, and there has been a 
number of positive signs to the recovery.
    For nearly 3 years, our individual assistance staff has 
been working hand in hand with thousands of individuals. The IA 
programs are at the forefront of FEMA's recovery activities. We 
have provided more than $1.2 billion for individuals and 
families under the Individual and Household Programs. More than 
216,000 households have been approved for housing assistance, 
totaling more than $876 million.
    And of that, $648 million have been disbursed in the form 
of rental assistance and expedited housing. We have placed over 
45,000 households in temporary housing since the disaster. And 
to show, as Mike stated also, where we are, currently we have 
decreased that by 87 percent and just over 5,600 continue to 
live in temporary housing today. Now, of those remaining 
temporary housing units, 50 percent of them are homeowners on 
their private property.
    FEMA's public assistance program is a vital and visible 
part of the recovery efforts of Mississippi. FEMA has been 
extremely active in working with the State and local 
governments to restore and rebuild public services and 
facilities.
    Though funded by FEMA, the public assistance program is 
administered by the State. Local governments and other eligible 
applicants receive their funding through the State.
    FEMA has obligated over $2.8 billion under the PA program. 
More than 22,000 project worksheets have been written, which is 
over 97 percent of the expected total. Of the $2.8 billion, 
$1.5 billion has been committed from the State. FEMA also has 
developed a status report that tracks weekly and cumulative 
progress of the entire PA program, which can be found on our 
Gulf Coast Recovery Web site off of FEMA.gov.
    FEMA's Hazard Mitigation funding is also available in 
several areas: to individuals and public entities to prevent 
future loss of lives and property due to disasters; to 
implement State and local hazard mitigation plans; to enable 
mitigation measures to be implemented during immediate recovery 
from a disaster; and also, to provide funding for previously 
identified mitigation measures. Funds available under HMGP may 
be used to flood-proof existing properties; acquire and 
relocate homes from hazard prone areas; develop State and local 
standards to protect new and substantially improved structures 
from disaster damage.
    The amount of HMGP funds available to the State is formula 
driven, based on the total amount of disaster grants provided. 
For Mississippi, over $413 million will be available, and as of 
now, currently $57 million of that has been obligated to 
approved projects.
    In the Mississippi TRO, we have piloted many new 
initiatives that have contributed to the recovery mission, and 
our lessons learned will help improve the effectiveness of FEMA 
programs in the future disasters.
    None of this recovery effort could have been possible, 
though, without the close coordination and partnership with the 
State of Mississippi from the very beginning.
    I look forward to discussing FEMA's efforts with this 
Subcommittee and answering any questions. Thank you.
    Ms. Norton. Well, thank you very much, Mr. Melton.
    I want to thank you and Mr. Womack.
    As we engage in a hearing in order to try to discover what 
more we can do and what the Federal Government can do, we 
certainly do not mean to indicate that we don't think any 
progress has been made in the State. In fact, it is said that 
Mississippi has made more progress than Louisiana. So I, 
clearly, and I would like to go down again to see some of this 
progress, but I was very, very concerned to see that I wouldn't 
see a single public building, for example.
    In terms of--I am going to let you speak to that, Mr. 
Womack.
    But I am must say one reason why I would expect to have 
heard less--we had some tears shed here in the last panel. One 
reason why I would have expected to have heard a better 
progress report from those on the ground is that Mississippi 
received, according to our records, 69 percent of the grants. I 
am told that that is considerably more than the other four 
States combined. So I am not prepared to hear about money 
problems in Mississippi. And I want to know if the grants came 
in such a proportion to Mississippi, I thought when I first 
heard about it and what the other jurisdictions were in 
comparison, I thought, well, they say that Mississippi is ready 
to pick up the caldrons and get going. Why are we hearing these 
concerns about money?
    Mr. Womack. Madam Chairman, I----
    Ms. Norton. You heard Mr. Taylor say that Congress has been 
generous. So I am trying to find out where the money went when 
part of--at least some of the testimony indicated money 
problems.
    Go ahead, Mr. Womack.
    Mr. Womack. The grant funding was originally allocated for 
housing. The Governor's plan was to make sure that we had 
sufficient money to help those people rebuild their homes 
first. And I am talking about the Homeowner Grant Program, 
which was first allocated to those people outside of the pre-
Katrina flood zones, and then it was allocated to people who 
were below median income inside the pre-Katrina flood zones. So 
that was the first step of making sure we didn't run out of the 
money. Because that was the intent----
    Ms. Norton. So that money has been----
    Mr. Womack. For the most part, has been disbursed. Not 
completely, but a large portion has----
    Ms. Norton. Because we did hear very wonderful, wonderful 
testimony about how---
    Mr. Taylor. Madam Chairman, very much to your point. 
Demographically, two-thirds of south Mississippians were 
homeowners. Demographically, two-thirds of New Orleanians were 
renters. So when you are talking a Homeowner Grant Program, it 
just stands to reason that we have more homeowners, and, 
therefore, a higher percentage of that money went in that 
direction.
    Ms. Norton. That is an important point that the Member is 
making.
    And when I first heard this, Mr. Taylor, I was sure that 
nobody was just trying to hand out money on any kind of 
favoritism basis.
    And look at what happened. When the homeowners were given 
the money, the private sector got in it and our last panel got 
in it, they testified that they built thousands of homes. But 
the testimony also from Mayor Longo and from them was that 
renters are in sorry shape; public buildings are in sorry 
shape.
    So, first, let me ask you, are you recommending that the 
DHAP program be extended beyond March 2009?
    Mr. Womack. If the question is directed to me, I think----
    Ms. Norton. Both of you.
    Mr. Womack. I think that FEMA's plan is to evaluate what 
the situation is in the fall, and make a decision as to whether 
or not it is going to be extended.
    Ms. Norton. You heard testimony. Not one single rental unit 
built in the State. You heard testimony that there has been 
diversion--and a Member put this in some perspective.
    Nevertheless, diversion of housing money to other revenue 
sources, if we leave out the judges. You heard that there are 
only 1,500 rental units--I believe that is the figure--rental 
units in the entire State. Now, I don't know what more 
investigation you need to do about DHAP once you lay those 
figures on the ground or on the table.
    Mr. Womack. I think the figure that the Chairman quoted was 
the number of affordable rental units.
    Ms. Norton. Well, we are talking about people in trailers.
    Mr. Womack. Right. Exactly. And----
    Ms. Norton. Not homeowners.
    Mr. Womack. This is our challenge on the Mississippi Gulf 
Coast, as Congressman Taylor already alluded to. There were 
many, many, many families. Most of people we are dealing with, 
they were not living in public housing. They had no Federal 
subsidy for their housing before the storm. They were renting 
homes from $400 to $600 a month. When those homes are 
destroyed, they are not rebuilt with a rental property valued 
at $400 to $600 a month.
    Ms. Norton. Therefore, are you in favor of extended DHAP?
    Mr. Womack. The problem that you have with automatically 
stating that you are going to extend the program is----
    Ms. Norton. For a given period of time. We don't--we are 
not asking--my question--you have got to answer this question 
so I can move on.
    And I am asking you this question, Mr. Melton. I am not 
asking for whether you are for extending it permanently. I am 
not asking you how long it should be extended. I am asking you, 
given the facts that I just gave you, no, you are not the 
decision-maker's ultimately. Nobody is going to take your job 
if you say it. You are the experts. I simply want to know, if 
all things were being equal and you were just asked your 
opinion, would you say that it would be better to extend the 
DHAP program or not? Can you give me a straight answer so I can 
move on, on that?
    Mr. Womack, you are the State man. So the extending of it, 
of the program, has to do with Federal funds. How about you?
    Mr. Womack. I would say this, if there is a need for it 
next March, then I think we could----
    Ms. Norton. Okay. If there is a need for it. I am going to 
take that answer.
    I am going to take that answer and ask Mr. Melton, since he 
is the Federal official who may be closest to it. Understand, I 
am not trying to put him on the spot. I understand that that--I 
am saying all things being equal. You don't know all the 
factors here in Washington and among those who have to make the 
decision.
    But as the Mississippian on the ground from FEMA, all 
things being equal, would you prefer that it be extended?
    Mr. Melton. Again, and not to sound like I am avoiding your 
question----
    Ms. Norton. But in fact you do so.
    Mr. Melton. Well, no, ma'am. I just want you to understand 
what my position is with the State. We are team effort, and we 
sit down together and decide.
    Ms. Norton. I am asking you your opinion as an expert. I 
understand you could say, look, the team may in fact decide, 
all things being considered, and they know more than I do. I am 
just saying, given the facts I put before you, I am trying to 
figure out as the Washington official Chair of this 
Subcommittee how I ought to behave based on what I hear from 
people on the ground. We have got to be out of here before 
1:30, I can't stay very long--much longer with this question, 
which has already taken more than 5 minutes to get a yes-or-no 
answer. What is your answer, Mr. Melton?
    Mr. Melton. If you----
    Ms. Norton. If the team says to you, all right, Mr. Melton, 
what is your recommendation? You are not the last answer here, 
but you are the closest to it. What would your recommendation 
be?
    Mr. Melton. At this point in time, if you are going to 
extend the housing, from just what I know right now, and of 
course, I know a little bit more than what has been presented 
here, I would say, no, at this point in time at today. Now 
that----
    Ms. Norton. Go ahead, Mr. Melton.
    Mr. Melton. Well, there are a lot of factors in there. As 
you just stated, there are 1,500 rentals available today. As 
I----
    Ms. Norton. In the entire State.
    Mr. Melton. No, ma'am.
    At the bottom three counties. There are problems within 
Hancock County of limited resources. There are probably about 
100 rental resources. In Harrison, there is a little over 1,100 
rental resources. In Jackson County----
    Ms. Norton. You think they are affordable.
    Mr. Melton. No, ma'am. We are not talking about anything 
affordable. We are talking about these are what--my job is to 
try to move people out of unsafe trailers because of the 
weather and move them into safe and secure environment. And if 
that means they go into a transitional unit, which is an 
apartment of some sort, and it is above their means, the 
Federal Government is picking up that tab at this point in 
type.
    Now, again, what you are talking about, from a case 
management standpoint, is it going to require longer to get 
them into affordable housing later down the road? Could be. But 
right now we need to focus on getting them out of--
    Ms. Norton. All right, Mr. Melton. Thank you.
    I am going to hold you accountable then for getting all 
those people affording housing before March 2009, since you 
appeared your testimony is that there are rental units there, 
and you all--as your job to get them in. I am going to move on. 
I have spent enough time with that.
    You heard something that you have to be sympathetic with, 
and I am certainly sympathetic with. I wouldn't know what to do 
if you said: Here, Eleanor Norton, you go down there and you've 
got some Federal funds. You put together what it would take to 
build the city hall, rebuild the city hall for Mayor Longo. I 
would say, you all have got to give me somebody who knows what 
they are talking about. I don't even know where to begin.
    Now, these, of course, are small communities. Even here in 
the District, a very large and experienced community, only the 
most experienced people have any idea how to maneuver through 
these programs, much less put together public and private 
moneys, State and local money, and all that goes with it.
    Do you agree that it would be helpful to have a--I will 
call it a facilitator, one witness called it a coach, who 
understands all of the Federal programs, has perhaps had 
experience of putting Federal, local, State, and private 
programs together to assist these small communities in 
Mississippi? Do you agree that some sort of person, technical 
assistance person, might be made? I am not saying that such a 
person exists. Remember, this is Washington trying to find out 
what Washington can do.
    Do you agree that it would be helpful to these communities 
to have such a person available to them, and that it perhaps 
would hasten the rebuilding of their infrastructure?
    Mr. Womack. Yes, ma'am, it would.
    But let's go back to the statement I made earlier. If that 
person comes in and is there a week or a month or a few months 
after the event and they tell the local government something, 
then you can't have the Office of Inspector General or Office 
of General Counsel or some other oversight agency coming back a 
year or two----
    Ms. Norton. Agreed, Mr. Womack.
    And of course, if we had an experienced person of the kind 
I am talking about, they would get the signoff, they would go 
to the IG and those kinds of things done. Those who know how to 
do this know how to make sure they protect themselves. So I 
understand what you are saying.
    Your notion about more permanent staff, that also was 
mentioned by prior witnesses, very important. I do want to say 
that perhaps understandably in the normal kind of, if there is 
any such thing, but hurricane, that people go and come because, 
after all, their recovery is not going to last forever. One of 
the exceptions that should have been seen as necessary, either 
by us--and I don't know if this is included in the bill we are 
still awaiting--or by FEMA, was that confusion apparently was 
sown by having people come back and forth. That may be a lot of 
water over the dam now. And but to the extent that FEMA can 
recruit technical staff or other staff who would be willing to 
spend a specific announced-in-advance time in the community, I 
think it would bring some solace to the community that somebody 
is paying attention and these are not pass-through people, 
bureaucrats from Washington.
    Do you think that would help, Mr. Melton?
    I don't know if such people can be found. They have their 
own families. They may be someplace else. But, again, from--and 
it is not anything that I think you could do, Mr. Melton or Mr. 
Womack.
    Do you think that would be helpful?
    Mr. Melton. Yes, ma'am. No doubt, continuity. As within the 
military, we had people stationed to do 1-year tours in Korea, 
and we still have the same problem of continuity. I was 
fortunate enough to get assigned 2 years for stability as a 
senior leader. So having people in there--and we as the TRO 
stood up and in the summer of 2006, we hired 70 percent of our 
staff is from local----
    Ms. Norton. Where?
    Mr. Melton. Right there, local, on the ground.
    Ms. Norton. That is of course the best. They should have 
your accent.
    Mr. Melton. Well, I was born in Mississippi and raised for 
a little while.
    Mr. Womack. It is very effective.
    But you also have to know that these are incredibly complex 
programs. When you start talking about FEMA public assistance, 
FEMA mitigation, CDBG block grant funding, USDA, it takes very 
high quality people to be able to do it.
    Ms. Norton. Now, when it comes to that kind, and that is 
separate from the other permanent staff that your--or more 
permanent staff. Mr.
    Womack, you know where of you speak. That person may well 
not be--that person is in heavy demand in the agency. But that 
person will know how to get signoff and passing it to somebody 
else.
    Let's move on. I want to move to the Member, because there 
are some issues I simply have to get on the record. If we are 
going to do anything, and, look, we have had hearings on these 
trailers, devastated hearings--devastating hearings on these 
trailers. I have mentioned court suits. I have mentioned 
children with all kinds of issues from these trailers. How many 
in Mississippi are still in these trailers? Is the figure I 
use, kind of the 6,000, more or less, figure still there? And 
how quickly are they being moved out? Do they get any priority 
if they are in those formaldehyde trailers as I call them? Do 
they get any priority?
    Mr. Melton. As of this morning, a little over 5,600 are in 
temporary housing units with a little over 1,000 of those being 
mobile homes. As far as the priority, we have contacted every 
individual, per Chief Paulson's press release in February, we 
have contacted every applicant and offered to move them out 
immediately, whether it be to a hotel. And we have only had the 
responses of over 400 that have moved into hotels. So we are 
very active and aggressive in working with applicants and 
trying to move them out. We have recertification----
    Ms. Norton. Mr. Melton, that is important. And I am sure 
some of them are close to their jobs or close to their families 
and wouldn't want to move. But that leads to my next question.
    I believe it was Ms. Bloodworth who talked about the 
difficulties in communication, getting people who know less 
about Federal programs than the government officials to 
understand where to come to the resource centers and the rest. 
And here am I sitting up here not knowing whether this is 
feasible asking, well, what is the population we are talking 
about? And believing--and I ask you to correct me if I am 
wrong--that a leaflet written in simple English passed out door 
to door or at least sent through the mail might be helpful to 
people who start with the notion, "I don't qualify," therefore 
may not be listening even though I am sure you have reached out 
to them? What I am asking you is if we can find a more 
simplified way, a more ordinary, low-tech way to reach people 
who continue to say, according to the last panel, they don't 
have any idea whether they qualify, haven't been there, and 
don't know anything. I am not blaming that on you. I am just 
saying, when you hear that, what is the next thing to be done?
    Mr. Melton. Well, I will tell you what we have been doing. 
Since January of 2007, we have started a volunteer agency, 
Helping Hands Workshop we do monthly across in selected areas, 
and we hand out fliers----
    Ms. Norton. What does that--how does that--out of that 
workshop comes what?
    Mr. Melton. We have upwards of 14 different agencies that 
come in, the Public Housing Authorities, the Lutherans, the 
credit counseling, wind jobs.
    Ms. Norton. Yeah, I know all about meetings. Out of the 
meetings, what is the work plan? What is the action item from 
the meetings?
    Mr. Melton. The applicants are given a briefing of what 
each of those programs offer them. Then they break up after the 
meetings for 3 hours, they break up and meet with each one 
individually about their special needs. And our volunteer 
agency, as long as applicants services case workers are in 
there to assist and help move those along. I mean, we have been 
working this since January of 2007. We recognize some of the 
shortfalls that are out there. And we pass fliers, a bazillion 
fliers out.
    Ms. Norton. Mr. Melton, I am not sure what the education 
level is. Many of these may be senior citizens. Many of them 
may not be Ph.D.s. But what I would ask you to do, you and Mr. 
Womack, following this hearing, is to have a meeting with the 
prior panel in order to see if you can design--I hate to say it 
this way, We do it here all the time--a door-to-door way where 
people would not just have a flier but would go around. And 
apparently you have got a lot of volunteers down in Mississippi 
who are willing to be helpful or who would go around and say, 
"I am here to answer your questions. Here's a phone number to 
call."
    I say this, we have a mayor who just got elected, who went 
to virtually every house in the District of Columbia in order 
to get elected and shook hands. And this is a city of more than 
600,000 people. I don't think he shook every hand in the city. 
But the fact is, if you set a goal, I am going to go to every 
house, did not--they even took numbers if they weren't there at 
all.
    So I have to say that in this population with--if the 
testimony we heard before is to be credited, it does mean that 
more has to be done. And here I am not even asking you what 
should be done. I am simply asking you if a meeting could be 
held with the prior panel to see if a more direct way of 
reaching people who may not understand what is available or 
what they should be doing, if that can be done.
    Mr. Melton. Yes, ma'am.
    And I just want to clarify one other thing, every applicant 
that is in one of our FEMA units has an assigned case worker, 
and that applicant has that case worker's phone number, and 
they meet monthly.
    Ms. Norton. Every applicant that is in. I am interested in 
the ones that are not.
    Mr. Melton. I understand. But I want to clarify that we are 
doing case work at the temporary housing level.
    Ms. Norton. One more question I want to ask Mr. Taylor.
    One of the frustrations that Mayor Longo mentioned, I am 
trying to see if we can deal with getting a facilitator. That 
can't be either of you. And I understand the difficulty of 
getting such a person. But he talked about the CDBG, and they 
are at phase four, no dollars even for phase one. And it looked 
like the whole program was stalemated.
    Mr. Womack. Can I address that program?
    Ms. Norton. Please do.
    Mr. Womack. Both of us realized very early on that there 
were certain communities, Waveland being the most devastated, 
that were going to need extra assistance.
    Ms. Norton. Such as?
    Mr. Womack. Well, I have got two of my staff members that 
are public assistance people that are in his offices, and I 
believe you have got the same thing where you have got the FEMA 
public assistance staff. We have tried to provide the staff to 
them within the limits of the law and regulation, because we 
are not allowed, under the Stafford Act, to do their job for 
them. We are not allowed to do it. But we try to take it as far 
as we can to provide as much assistance as we can.
    Ms. Norton. I am going to ask staff to look at the 
Hurricane Recovery Act we just finished. I mentioned the act is 
now in the Senate. Perhaps most important in the act--and I am 
not sure it deals with this, but there is going to have to be a 
conference--it streamlines procedures for the Gulf Coast that 
other communities cannot use, because we had so many complaints 
that you just can't get from here to there. So one of the 
things staff is going to look at is see if we can do more than 
have the local FEMA person say, "I am sorry, I can't do that 
for you, do it yourself." We obviously need somebody who can in 
fact be truly helpful.
    I am going to and ask--I am going to ask the man who--did 
you want to say something? If you could step to the microphone. 
This is Mayor Longo who was the predicate for the last 
question.
    Go ahead, sir.
    Mr. Longo. Yes, ma'am. Thank you, Madam Chairman.
    I wanted to clarify a little bit. Both MEMA and FEMA have 
lent us personnel that have helped us through the process.
    Ms. Norton. You made that clear.
    Mr. Longo. The Federal Government made moneys available 
early on that we received in a grant and hired consultants in 
the private sector that have helped us through the process. It 
has just been an unbelievable situation to build, say, City 
Hall, to pull together the four different funding groups and 
the levels that have to come together.
    Ms. Norton. I think Mr. Taylor made the point best when he 
talked about the kind of expertise that may be more routine in 
larger cities, and so the ordinary kinds of assistance that 
FEMA has felt it could operate under--I am not saying that they 
were wrong, that they should have done more. But I am saying to 
you that your testimony and that of the other Members of the 
panel have driven home to me that, as long as we are cutting 
through and streamlining, in order to be able to do more 
quickly deal with a very special and need situation, we would 
like to take a look at this so that you get more than the kind 
of help you have gotten. And you cast no dispersion.
    Mr. Longo. Positively. And one of the biggest problems we 
are having now, and it sounds like Mr. Womack touched on it, is 
these PWs, some that have been written for almost 3 years that 
have gone over and gone over and gone over. Then we go out to 
the point to where we got out for bid now after the specs and 
plans have been approved, and they go out for bid, and then all 
of a sudden, the IG or someone steps in and puts a halt on it. 
That is something that continuity would change.
    Ms. Norton. And only an expert could help you to get so 
that once you are go, you really are on go.
    Mr. Taylor.
    Mr. Taylor. Thank you, Madam Chairman.
    And a couple of clarifications, Mr. Womack. I am going to 
challenge your figure that 35,000 trailers were delivered 
within 2 months. I don't believe that, based on the calls that 
we got in my office.
    In fact, I am glad Mr. Melton is here. Number one, he had a 
very difficult job. We had, at different times, some fairly 
strong words with each other, but we do appreciate his overall 
effort.
    But what I saw, Madam Chairwoman, was truly a model of 
inefficiency that has to be corrected before the next storm. 
And today, if you were to go to Lamar County, Mississippi, you 
would see approximately 10,000 FEMA trailers. They have been 
cleaned. They have been refurbished. And they are waiting for 
the next emergency. And that is a good thing.
    The part that I am not so sure of, and I hope Mr. Melton, 
or Colonel Melton, will enlighten us on, is the delivery 
factor, which I thought a model of inefficiency. It was a no-
bid, cost-plus contract given to an outfit called the Bechtel 
Corporation, and they averaged getting $16,000 per trailer to 
haul them the last 70 miles or so, to hook them up to a garden 
hose, a sewer tap, and hook them up to electricity. Now, the 
garden hose and the sewer tap, I could do. I could imagine with 
about a half day's training, I could learn to be the 
electrician as well.
    And what really troubled me is that struck me as a heck of 
a lot of money. But then, on a cost-plus contract, no one has 
any incentive to get faster, to get more efficient. As a matter 
of fact, the longer they drug it out, their salaried employees 
got paid.
    There was some really dumb practices like, if the heater 
went out--it is a rooftop heater--if the heater went out on one 
unit, they would strip the heater out of a perfectly good unit 
and put it in the other. Now, it rains through the open hole in 
the perfectly good unit going to a particle wood floor, which 
ruins it. So you have ruined a $16,000 trailer to replace an 
$800 heater. And this happened quite frequently. I actually 
snuck into the boneyard and made an accounting for myself and 
found 50 ruined trailers. So that is 50 times $16,000. Again, 
Washington, D.C., not big money. Bay St. Louis, Mississippi, 
huge money that we could have done better. Plus, that is 50 
families that waited that much longer to get a trailer.
    So, Mr. Melton, given that, on a regular basis, I was 
making you aware of where efficiencies could have been picked 
up, that I didn't see any changes, what are the lessons learned 
that FEMA is going to implement for the next time this happens 
as far as the delivery of the trailers? Has anything been done 
to make it easier for locals to bid on that? What has been done 
to pick up some economies of scale on everything from making 
the power poles, which took way too long, to the installation 
of the power poles? For example, has FEMA sat down with the 
different power companies, be it the electrical co-op or 
something like Mississippi Power, and said, "what if we paid 
you to install that power pole? You have got crews that know 
how to do this." I guarantee you, we would get economies of 
scale, and we would have crews from all over the country that 
could come in and do this.
    What has changed since the last time that is going to give 
me a higher degree of confidence that the next community that 
gets hammered won't have to wait as long as the communities as 
south Mississippi had to wait?
    Mr. Melton. Well, I know, sir, one of the things that is 
working, just looking for alternative solutions, period, 
instead of the travel trailers. Of course, the travel trailers 
is a speed--is probably the fastest thing known right now. And 
contractually, I know that they have already gone out for pre-
awards, I guess you would call it, to pre-identify potential 
vendors through the----
    Mr. Taylor. Can I go point by point?
    Mr. Melton. Okay.
    Mr. Taylor. Has FEMA come up with any sort of arrangement 
with the local power company to supply that power pole? Because 
that was a major hindrance to getting people in their trailers.
    Mr. Taylor. Okay.
    Second question, I thought one of the other mistakes was 
having propane tanks on those trailers. Again, if you are using 
it one weekend a month, it is no big deal to run out of propane 
every 3 days. If you are going to live in it for several years, 
and particularly if you have a disability or are up in age, 
changing out that propane tank--so has FEMA looked at all-
electrical units?
    Mr. Melton. I believe they have looked at it, but one of 
the things that limits you, though, is utilization of 
commercial RV parts, which are only 30- and 50-amp parts. And 
when you start using all-electric units, you go up above 100 
amps. So that would mean we couldn't utilize already places 
that were already established.
    Mr. Taylor. On that point, again, FEMA was good enough to 
loan my congressional office a trailer that we operated out of 
for several years. We ended up just using a plug-in electric 
heater rather than buying the propane. So, again, by default, 
that is the way people were going. And I would hope by default 
FEMA would look at jumping from a 30- to a 50-amp service and 
making that change.
    What is being done to address the no-bid part of it? 
Because, again, as I mentioned, early on you can't buy diesel, 
you can't even get a flat fixed, you can't find a mechanic. You 
have to get help from outside. But after about 30 days, all of 
those things that I just spoke about are available locally.
    Has FEMA looked at anything like a quick fix for the first 
30 days and then a second contract to give some of those folks 
who lost their homes a chance to bid on this work so they can 
start rebuilding their lives?
    Mr. Melton. Yes, sir, I understand that the acquisition, 
which is run here from headquarters, has done a major overhaul 
and are looking at all those things that you just described.
    Mr. Taylor. Would you ask those decision-makers to get in 
touch with this Committee to make us aware? Again, you guys in 
the military taught me the expression, there are lessons learn 
and lessons observed, and I sure as heck hope this is lessons 
learned, that we learn from our mistakes and we don't keep 
repeating them.
    Mr. Melton. Roger.
    Mr. Taylor. Okay.
    Thank you, Madam Chairman.
    Ms. Norton. Thank you very much.
    I am sorry, at this point I do vote on the House floor. So 
I am going to have to ask that any further questions--and I, 
myself, have some, and Mr. Taylor may have some, and the 
Ranking Member may have some--be submitted for the record.
    I want to thank each and every one of you for coming.
    Your testimony, Mr. Melton and Mr. Womack, was absolutely 
essential. We sympathize with the position you have been put 
in, and we mean to make your job easier and to facilitate you, 
as well, in the way you deal with the community. We have been 
taking homework for ourselves, not simply homework for FEMA.
    Thank you very much.
    And this hearing is adjourned.
    [Whereupon, at 1:20 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T3116.005
    
    [GRAPHIC] [TIFF OMITTED] T3116.006
    
    [GRAPHIC] [TIFF OMITTED] T3116.007
    
    [GRAPHIC] [TIFF OMITTED] T3116.008
    
    [GRAPHIC] [TIFF OMITTED] T3116.009
    
    [GRAPHIC] [TIFF OMITTED] T3116.010
    
    [GRAPHIC] [TIFF OMITTED] T3116.011
    
    [GRAPHIC] [TIFF OMITTED] T3116.012
    
    [GRAPHIC] [TIFF OMITTED] T3116.013
    
    [GRAPHIC] [TIFF OMITTED] T3116.014
    
    [GRAPHIC] [TIFF OMITTED] T3116.015
    
    [GRAPHIC] [TIFF OMITTED] T3116.016
    
    [GRAPHIC] [TIFF OMITTED] T3116.017
    
    [GRAPHIC] [TIFF OMITTED] T3116.018
    
    [GRAPHIC] [TIFF OMITTED] T3116.019
    
    [GRAPHIC] [TIFF OMITTED] T3116.020
    
    [GRAPHIC] [TIFF OMITTED] T3116.021
    
    [GRAPHIC] [TIFF OMITTED] T3116.022
    
    [GRAPHIC] [TIFF OMITTED] T3116.023
    
    [GRAPHIC] [TIFF OMITTED] T3116.024
    
    [GRAPHIC] [TIFF OMITTED] T3116.025
    
    [GRAPHIC] [TIFF OMITTED] T3116.026
    
    [GRAPHIC] [TIFF OMITTED] T3116.027
    
    [GRAPHIC] [TIFF OMITTED] T3116.028
    
    [GRAPHIC] [TIFF OMITTED] T3116.029
    
    [GRAPHIC] [TIFF OMITTED] T3116.030
    
    [GRAPHIC] [TIFF OMITTED] T3116.031
    
    [GRAPHIC] [TIFF OMITTED] T3116.032
    
    [GRAPHIC] [TIFF OMITTED] T3116.033
    
    [GRAPHIC] [TIFF OMITTED] T3116.034
    
    [GRAPHIC] [TIFF OMITTED] T3116.035
    
    [GRAPHIC] [TIFF OMITTED] T3116.036
    
    [GRAPHIC] [TIFF OMITTED] T3116.037
    
    [GRAPHIC] [TIFF OMITTED] T3116.038
    
    [GRAPHIC] [TIFF OMITTED] T3116.039
    
    [GRAPHIC] [TIFF OMITTED] T3116.040
    
    [GRAPHIC] [TIFF OMITTED] T3116.041
    
    [GRAPHIC] [TIFF OMITTED] T3116.042
    
    [GRAPHIC] [TIFF OMITTED] T3116.043
    
    [GRAPHIC] [TIFF OMITTED] T3116.044
    
    [GRAPHIC] [TIFF OMITTED] T3116.045
    
    [GRAPHIC] [TIFF OMITTED] T3116.046
    
    [GRAPHIC] [TIFF OMITTED] T3116.047
    
    [GRAPHIC] [TIFF OMITTED] T3116.048
    
    [GRAPHIC] [TIFF OMITTED] T3116.049
    
    [GRAPHIC] [TIFF OMITTED] T3116.050
    
    [GRAPHIC] [TIFF OMITTED] T3116.051
    
    [GRAPHIC] [TIFF OMITTED] T3116.052
    
    [GRAPHIC] [TIFF OMITTED] T3116.053
    
    [GRAPHIC] [TIFF OMITTED] T3116.054
    
    [GRAPHIC] [TIFF OMITTED] T3116.055
    
    [GRAPHIC] [TIFF OMITTED] T3116.056
    
    [GRAPHIC] [TIFF OMITTED] T3116.057
    
    [GRAPHIC] [TIFF OMITTED] T3116.058
    
    [GRAPHIC] [TIFF OMITTED] T3116.059
    
    [GRAPHIC] [TIFF OMITTED] T3116.060
    
    [GRAPHIC] [TIFF OMITTED] T3116.061
    
    [GRAPHIC] [TIFF OMITTED] T3116.062
    
    [GRAPHIC] [TIFF OMITTED] T3116.063
    
    [GRAPHIC] [TIFF OMITTED] T3116.064
    
    [GRAPHIC] [TIFF OMITTED] T3116.065
    
    [GRAPHIC] [TIFF OMITTED] T3116.066
    
    [GRAPHIC] [TIFF OMITTED] T3116.067
    
    [GRAPHIC] [TIFF OMITTED] T3116.068
    
    [GRAPHIC] [TIFF OMITTED] T3116.069
    
    [GRAPHIC] [TIFF OMITTED] T3116.070
    
                                    

</pre></body></html>
